<html>
<title> - KIDS IN CAGES: INHUMANE TREATMENT AT THE BORDER</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                             KIDS IN CAGES:
                           INHUMANE TREATMENT
                             AT THE BORDER

=======================================================================

                                HEARING

                              BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 10, 2019

                               __________

                           Serial No. 116-44

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                   
                   
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-284 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b6b745b786e686f737e776b3578747635">[email&#160;protected]</a>                           
                   
                   
                   
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
              Candyce Phoenix, Subcommittee Staff Director
         Valerie Shen, Chief Counsel and Senior Policy Advisor
                     Joshua Zucker, Assistant Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Carolyn Maloney, New York            Chip Roy, Texas, Ranking Minority 
Wm. Lacy Clay, Missouri                  Member
Debbie Wasserman Schultz, Florida    Justin Amash, Michigan
Robin Kelly, Illinois                Thomas Massie, Kentucky
Jimmy Gomez, California              Mark Meadows, North Carolina
Alexandria Ocasio-Cortez, New York   Jody Hice, Georgia
Eleanor Holmes Norton, District of   Michael Cloud, Texas
    Columbia                         Carol D. Miller, West Virginia
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 10, 2019....................................     1

                               Witnesses

Panel 1
Yazmin Ju rez, Asylum Seeker
Oral Statement...................................................     8
Panel 2
Michael Breen, President and Chief Executive Officer Human Rights 
  First
Oral Statement...................................................    16
Clara Long Deputy, Washington Director Human Rights Watch
Oral Statement...................................................    18
Hope Frye, Executive Director Project Lifeline
Oral Statement...................................................    20
Dr. Carlos A. Gutierrez, M.D. F.A.A.P., Pediatrics Private 
  Practice
Oral Statement...................................................    22
Ronald D. Vitiello, (Minority Witness) Former Chief, U.S. Border 
  Patrol Former Acting Director, Immigration and Customs 
  Enforcement
Oral Statement...................................................    24

                           Index of Documents

                              ----------                              

The documents listed below are available at: https://
  docs.house.gov.

  * Statement from the American Medical Association; submitted by 
  Chairman Raskin.

  * Statement from Amy Kahn; submittedby Chairman Raskin.

  * Statement from Carol Martin, Executive Director of Trauma 
  Recovery at EDMR Humanitarian Assistance Programs; submitted by 
  Chairman Raskin.

  * Statement from Church World Service; submitted by Chairman 
  Raskin.

  * Statement from the National Association of Pediatric Nurse 
  Practitioners; submitted by Chairman Raskin.

  * Statement from Myra Jones-Taylor, Chief Policy Officer for 
  Zero to Three; submitted by Chairman Raskin.

  * "Inside the Secret Border Patrol Facebook Group Where Agents 
  Joke About Migrant Deaths and Post Sexist Memes" from 
  ProPublica; submitted by Rep. Gomez.

 
                             KIDS IN CAGES:
                           INHUMANE TREATMENT
                             AT THE BORDER

                              ----------                              


                        Wednesday, July 10, 2019

                   House of Representatives
  Subcommittee on Civil Rights and Civil Liberties,
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:52 p.m., in 
room 2154, Rayburn House Office Building, Hon. Jamie Raskin 
(chairman of the subcommittee) presiding.
    Present: Representatives Raskin, Maloney, Clay, Wasserman 
Schultz, Kelly, Gomez, Ocasio-Cortez, Pressley, Norton, Roy, 
Massie, Meadows, Hice, Cloud, Miller, and Jordan.
    Also present: Representatives Tlaib and Grothman.
    Mr. Raskin. The subcommittee will come to order. Please 
close the doors if you can. Without objection, the chair is 
authorized to declare a recess of the committee at any time.
    This subcommittee is convening this hearing regarding 
inhumane treatment of children and families at the border. I 
will now recognize myself for five minutes to give an opening 
statement.
    I want to welcome--oh, Okay, we're going to start with a 
video. If you would run that.
    How are we doing on the opening video? Okay. Let me know 
when that comes up.
    I want to welcome the members of the Subcommittee on Civil 
Rights and Civil Liberties. I want to welcome our distinguished 
witnesses and guests to this hearing on the humanitarian crisis 
at the border.
    The American people are up in arms about reports, both from 
the Inspector General of the Department of Homeland Security 
and the media and various human rights groups, about the 
dangerous overcrowding, spreading infections, influenza, 
diarrhea and lice, pervasive medical inattention, sexual 
assault, and systematic abuse of the rights of migrants in U.S. 
Government care and custody at the border. We hope to shine a 
bright light this afternoon on these dark developments to 
enable rapid and effective legislative responses.
    I especially want to thank our first witness, Yazmin 
Juarez, for coming to share the painful story of her 19-month-
old daughter Mariee, who experienced untreated respiratory 
complications during her detention by ICE and died shortly 
thereafter. We know that six children have lost their lives 
while in detention at the border.
    I want to thank all the Members of Congress and this 
committee who have traveled to the border to investigate and 
all of those who are prepared to do so in the coming weeks.
    The human rights violations and family catastrophes 
happening at the border are not improving a serious regional 
refugee crisis, but they are worsening and exacerbating it.
    What is driving this refugee crisis? Gang violence and 
intimidation, government dysfunction and police corruption, 
political persecution, rape and gender violence, they are all 
driving unprecedented numbers of desperate families and 
terrified children out of the Northern Triangle of Central 
America to the United States.
    Many of the migrants amassing at our border are escaping 
threats of imminent death or bodily harm or the prospect of 
their children being forced into violent gangs or criminal 
networks of sexual abuse and trafficking. Some are climate 
change refugees fleeing the devastating effects of extreme 
drought and flooding in their home areas.
    The journey to the border today for these huddled masses is 
traumatic and filled with deadly peril. Along the way, many are 
robbed, assaulted, or raped. Some have been killed. Parents 
have drowned alongside their children in the Rio Grande.
    But hundreds of thousands have made it to our border. They 
turn themselves in to border officials and make their legal 
claim for asylum, a claim that they have the right to make 
under both American and international law.
    Yet they have been greeted not as refugees whose asylum 
claims must be heard and taken seriously under our due process 
of law, but as presumptive criminals and threats to the 
American people.
    The Trump administration has prosecuted them, subjected 
their families to prolonged and miserable detention, separated 
children from their parents, and forced migrants back into 
Mexico. The entire thrust of this policy is punishment, both 
court-ordered and government-administered, and deterrence by 
means of mass trauma.
    While the Trump administration did not cause the refugee 
crisis in Central America, it has exacerbated it by cutting off 
hundreds of millions of dollars in foreign aid for education, 
healthcare, and community development to precisely the 
countries which the refugees are now desperately fleeing in 
huge numbers.
    We owe the region at least this aid, given that we are a 
key market for the drug trade that has wreaked so much violence 
and insecurity in these countries, and all of us are implicated 
in foreign policies toward Central America over the last 
several decades which have emphasized war and military 
assistance over economic and social development.
    The administration's chaotic policy responses have produced 
a severe humanitarian crisis at the border, with dangerous 
overcrowding, widespread sickness and disease, and a shocking 
failure to provide adequate medical care, food, water, and 
sanitation.
    America is watching scenes of sick children packed into 
holding cells, pregnant women sleeping on cold floors, and 
mothers trying to warm newborn babies with aluminum blankets.
    The policy of separating thousands of migrant children from 
their parents is designed to make conditions at the border so 
miserable that the refugees will simply stop coming. Last May, 
then Attorney General Sessions stated, ``If you don't want your 
child to be separated, then don't bring them across the border 
illegally.''
    But these policies are failing to deter asylum-seeking 
families because the underlying causes of their migration are 
so grave and overwhelming. In fact, the Trump deterrence policy 
seems to be having no deterrent effect at all.
    According to Customs and Border Protection's own data, 
family migration spiked in the month after the administration 
announced the family separation policy, and there have been 
sharp increases ever since, unlike anything we've seen before 
in our lifetimes.
    Whatever else these harsh policies are intended to 
accomplish, the message received by hundreds of thousands of 
people seems to be: Migrate now before things get even worse.
    The administration has failed to respond in a way that 
meets the actual humanitarian challenges at the border. Our 
government should be sending doctors and social workers and 
humanitarian supplies to the border along with asylum officers 
and legal resources to help identify and process claims. We 
should be making sure that all of the money being spent at the 
border is not being wasted, but used to meet the urgent 
nutritional and medical needs of the migrants.
    Last week, the Department of Homeland Security's Inspector 
General warned of a ``ticking time bomb'' at Border Patrol 
detention facilities. The IG cited children crammed into cages 
with no access to showers or hot meals and ``serious 
overcrowding and prolonged detention'' for adults, some in 
standing room only conditions with no room to lie or even sit 
down.
    At the Border Patrol station in Clint, Texas, The New York 
Times reported: ``Outbreaks of scabies, shingles, and 
chickenpox were spreading among the hundreds of children in 
cramped cells, agents said. The stench of the children's dirty 
clothing was so strong it spread to the agents' own clothing. 
People in town would scrunch their noses when they left work. 
The children cried constantly. One girl seemed likely enough to 
try to kill herself that the agents made her sleep on a cot in 
front of them so they could watch her as they were processing 
new arrivals.''
    There is no excuse for our government being so unprepared 
and indifferent to refugee flows that have been steadily 
mounting for months. These conditions violate American law and 
international human rights standards. We would not accept these 
conditions for refugees anywhere else in the world.
    The Trump administration reversed a policy, for example, 
that largely protected pregnant women from detention. Over 200 
human rights and civil rights groups have called for the 
policy's reinstatement, noting the current arbitrary detention 
of pregnant women violates international human rights norms.
    Last week, the DHS Inspector General reported that 31 
percent of children across five facilities had been held longer 
than 72 hours, in violation of Flores, the 1997 settlement 
agreement that required children to be placed in safe and 
sanitary conditions and directs children be transferred out of 
detention facilities as expeditiously as possible. There have 
now been news reports of migrant children detained for much 
longer than 72 hours and many for weeks.
    There is a dangerous lack of accountability at detention 
facilities. We know that many officers are doing their best 
under these trying and excruciating conditions, but after 
recent reports there is little doubt that there is a real 
contingent of border agents acting in callous and scandalous 
ways, punishing scared and helpless children, mocking migrant 
deaths on Facebook, and even attacking in vile ways Members of 
Congress who dare to demand fair treatment for migrants under 
the rule of law.
    I am pleased that the Acting Secretary has pledged to 
investigate these reports, but reportedly top Border Patrol 
officials have been aware of the Facebook group and its 
egregious contents for many months and even years.
    What sort of culture exists within DHS that would foster or 
even tolerate this behavior for so long? Why did the 
administration and its allies block efforts to ensure that 
increased funding for the border be accompanied by provisions 
to ensure responsible oversight over how our money as taxpayers 
is being spent? How can we end official tolerance for these 
shameful actions in our name?
    I hope our hearing today will bring these difficult facts 
into the light and pose hard questions about official actions 
that shame us as a society, not as Democrats or Republicans or 
independents, but as Americans. I also hope that this hearing, 
in conjunction with Chairman Cummings' full committee hearing 
scheduled for Friday, will identify immediate steps to provide 
relief and change in these conditions.
    I will now go to the opening video before I turn it over to 
our ranking member, Mr. Roy.
    [Video shown.]
    Mr. Raskin. The chair now recognizes the ranking member of 
the subcommittee, Mr. Roy of Texas, for five minutes for his 
opening statement, and I will be liberal with that.
    Mr. Roy. I thank the chairman.
    Ms. Juarez, on behalf of this committee, all the members 
here, the entire House of Representatives, there are no words 
that we can possibly share with you about the loss of your 
little girl. I am the father of a son and a daughter. I cannot 
possibly imagine what you have gone through. And we owe it to 
you and to our country and to all those who seek to come here 
to have a system that works and to not have something like this 
happen. And so my prayers from my family to you, and we thank 
you for being here.
    Mr. Chairman, I have to say I am frustrated, though, with 
the title of the hearing. It's setting a tone that doesn't 
allow us to come together to address this difficult problem in 
a way that is befitting of the United States and our welcoming 
nature as a country. It is a hearing entitled ``Kids in 
Cages.'' What we say and the hyperbole we use matters.
    As a Member from Texas and a former staffer on the Senate 
Judiciary Committee, as a Member of Congress, I've been to the 
border many times, and to this day I have never seen a kid in a 
cage the way those words seem to indicate it.
    Let's look at the advertisements for this hearing, OK? The 
slide on the right is the ad for this hearing, showing pictures 
of kids supposedly in cages. The picture on the left is a 
picture from 2014 when President Obama's DHS Secretary Jeh 
Johnson was giving a tour of a facility where you've got, yes, 
chain link barriers put up in temporary facilities at that time 
under the Obama Administration in a way to deal with a crisis 
at 2014 time of unaccompanied children riding on the top of 
train cars--we remember those horrific stories from five years 
ago--and trying to deal with the problem of massive numbers of 
people coming across the border, oftentimes with parents that 
aren't the parents claiming to be the parents of the child, 
which is horrific, oftentimes in facilities and dealing with 
situations where you want to separate the children from bad 
actors.
    In the most recent time, we've had 144,000 people that CBP 
had to deal with in May. How do you deal with that? Under the 
most generous circumstances of trying to figure out what to do 
to care for these children, release them to family members, 
release them in a safe way, care for them, give them food, give 
them healthcare, how would we have them do it when we're 
denying them the facilities and the resources to do it?
    We should discuss the humanitarian crisis. We're 
experiencing an unprecedented surge in migrants. You see the 
chart over here. I don't have to go through it. The red line, 
you see the massive spike in apprehensions. The numbers in June 
were 94,987, the highest June number recorded in at least the 
last five years. It was down from 144,000 in May. That often 
happens because of the heat in June.
    I've personally seen that an overwhelming number of 
individuals fill our Border Patrol stations and stretch our 
Border Patrol workers to go above and beyond. We all agree that 
they're stretched. There is no disagreement in this room on 
that, at least today. There might have been five months ago.
    I've seen the facilities, and I've not seen a single cage 
in the way that it is being depicted. I am seeing ways to try 
to separate people and keep them safe. And we demean the 
process and our Border Patrol agents, who are law enforcement 
officers for the government of the United States trying to do 
their job, when we call them cages.
    It is not helpful to use this crisis that so many denied 
and called manufactured now to score political points. In this 
fiscal year, more than 694,000 aliens have been apprehended, 
whether they were claiming asylum or whether they were just 
straight coming illegally.
    On February 15 the President declared a national emergency 
at the border to deal with the escalating crisis. On May 1 the 
Office of Management and Budget wrote Congress its first 
request for emergency funding to address this worsening crisis. 
That request and the followup was ignored. And the situation 
grew so dire, I find myself in agreement--I found myself in 
agreement with the editorial board of The New York Times, who 
said it is time for Congress to stop dithering and pass 
emergency funding to deal with this nightmare.
    I even forced a few votes on the floor of the House of 
Representatives. How dare I force votes in the people's House? 
And some of my colleagues joined.
    Why? Because for five months we had listened to some of our 
colleagues say there is no crisis. Speaker Pelosi called the 
situation a fake crisis at the border. Foreign Relations 
Committee Chairman Engel called the situation a fake crisis at 
the border. House Judiciary Committee Jerry Nadler: There is no 
crisis at the border. Representative Debbie Wasserman Schultz, 
one of my colleagues on this committee: We don't have a border 
crisis. Representative Doggett, a fellow Texan, called the 
situation a phony border crisis. Representative Sanford Bishop 
called it a crisis that does not exist. I could go on and on. 
There are dozens of examples, hundreds of examples.
    Instead of focusing on the magnets that will allow cartels 
to exploit women and children, some in this body would rather 
attack the men and women on the front lines of the crisis.
    In the face of our willful blindness and at times blatant 
falsehoods, CBP has performed over 3,000 rescues this year--
3,000 rescues this year--including last month in Laredo where 
they rescued 14 migrants locked in a horse trailer that was 124 
degrees inside with no ventilation or exit.
    Now, we can have a robust debate about how we solve this 
crisis, about what we do about legal and illegal, about what we 
do about asylum, about ports of entry, between ports of entry. 
These are all complex questions, and I wish we would all sit in 
a room, roll our sleeves up, and sit down and figure out how to 
solve the problem.
    But the reality is CBP is out there saving lives. Agencies 
such as the CBP do not have enough resources to respond to the 
crisis while also performing their law enforcement duties. DHS 
Secretary McAleenan said this weekend, quote, ``We have no 
evidence that children went hungry.''
    Now, we're Oversight, we should go dig into that statement. 
I agree with that. Let's go make sure that there aren't 
children going hungry.
    ``Of course, we're worried about it''--this is now his 
words--``Of course, we're worried about it. Everyone in the 
entire chain of command was worried about the situation for 
children. That's why we've built soft-sided facilities, a 
thousand spaces. We're building more that we are going to be 
opening next week. We're trying to provide as much space and as 
much nice a setting as we possibly can while children are in 
our custody.
    ``But the big point was to move them to HHS. Let me give 
you an update. On June 1, we had 2,500 children in our custody; 
1,200 had been with us over three days. Now that we have the 
supplemental from Congress''--the supplemental that was being 
denied--``we have the supplemental from Congress, HHS has 
additional beds. We only have 350 as of yesterday afternoon's 
report, and only 20 of those children have been with us for 
more than three days. So that's a huge improvement.''
    And that's his words.
    Today, I talked to a CBP official that said at no point in 
time has a CBP facility been lacking in supplies for migrant 
children. Okay, that's his word. We should look into that and 
make sure that's the case.
    When my friends across the aisle ignored the 
administration's request for emergency funding for two months, 
DHS took action and CBP began paying for supplies out of their 
operational budget. Sometimes they paid out of their own 
pockets to make sure that things were taken care of.
    Importantly, my chief of staff went to Clint this weekend 
because I felt so strongly about looking into what some of my 
colleagues were claiming. I couldn't go because of a family 
conflict, but my chief of staff went. And he looked and he 
talked and he saw and he took pictures--or, I'm sorry, he 
observed some of the pictures you're going to see here, which 
is from a video from a Border Patrol head in, I believe, in 
Arizona, facilities where you're seeing lots of materials and 
supplies and food. And there's other pictures that show other 
materials and supplies and food.
    Now, can I guarantee that all of that got to every person 
who's been detained? No. But this is what we're getting in 
terms of information and what we're seeing, what I see with my 
own eyes. I've seen with my own eyes the facilities in McAllen 
where I talked to Border Patrol and they'll see some of my 
colleagues on the other side of the aisle come in and go: Well, 
this all looks great. They walk across the street and they go 
get in front of a camera, and they say: Kids in cages.
    That's not going to solve the problem. That's not going to 
help Ms. Juarez. That's not going to help stop the cartels who 
made $2 billion in 2018 profiting by moving people through 
Mexico to come here, hundreds of millions of dollars, the 
Reynosa faction of the Gulf Cartel, the cartel del Noreste Los 
Zetas, the Sinaloas, dangerous cartels making tons of money 
moving people through.
    And even if you believe this is because the Northern 
Triangle is suffering calamitous situations economically in 
terms of safety and security and gangs, agreed. But what we're 
talking about is a profit model that cartels are abusing to use 
for profit to come then and use our asylum laws to harm these 
people and to harm that father and that child that died in the 
river trying to come here.
    Now, I've gone longer than I probably should have, Mr. 
Chairman. I appreciate that you've given me the time. We have a 
broken immigration system. We must act quickly. I believe we 
need to fix the asylum problem, the Flores settlement 
agreement. We need to have a strong collective agreement on 
what we can do to secure the border.
    I've recently introduced a bill aimed at addressing the 
crisis, the Charitable Donations Freedom Act, to make sure 
there's no barriers in the Antideficiency Act. If anybody wants 
to give something, they can give a charitable gift.
    I don't even know if it's necessary, but let's make sure 
there's no barriers and let's work together to bring down any 
barriers to make sure people are cared for. I don't believe 
that the CBP isn't doing everything it can to ensure that human 
beings are treated the way they should.
    I look forward to hearing from the witnesses, and I 
appreciate the chairman's time.
    Mr. Raskin. Mr. Roy, thank you very much.
    Now, we have two panels today. The first panel has just one 
witness, and that's Yazmin Juarez, who's come. And so I am 
going to swear her in.
    We are very grateful to you for your appearance today. We 
extend you our condolences, our sympathy, and also our 
gratitude, because you're doing a great service to America by 
coming forward to tell your story.
    You are accompanied today by Jasmin Rumbaut, a certified 
interpreter with the New York State Unified Court System.
    You have a headset or you can do simultaneous translation 
for Ms. Juarez when the members speak or ask questions.
    I believe we're expecting votes to be called in about half 
an hour, I think the last I heard. So we will let the witness 
testify, we will have whatever questions there are, and when we 
return we'll open up with the second panel.
    So I'd like to swear you in. So please stand, if you would, 
Ms. Juarez, and raise your right hand.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witness answered in the 
affirmative.
    Thank you, Ms. Juarez. Please be seated. Please be sure to 
speak directly into the microphone. Without objection, your 
written statement will be made part of the record.
    I also, without objection, will waive onto the committee 
for the purposes of participation today Ms. Tlaib from Michigan 
and Mr. Grothman from Wisconsin. Hearing no objection, they are 
waived on.
    And with that, Ms. Juarez, you are now recognized to speak 
to the committee.

           STATEMENT OF YAZMIN JUAREZ, ASYLUM SEEKER

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Juarez. First of all, I'd like to thank each and every 
one of you, and may Jesus bless each and every one of you. 
Thank you, Chairman Raskin, Ranking Member Roy, and members of 
the committee, for inviting me.
    My name is Yazmin Juarez. My daughter Mariee and I fled 
Guatemala, seeking asylum in the United States. We made this 
journey because we feared for our lives. The trip was 
dangerous, but I was more afraid of what might happen to us if 
we stayed. So we came to the United States, where I hoped to 
build a better, safer life for us.
    Unfortunately, that did not happen. Instead, I watched my 
baby girl die slowly and painfully just a few months before her 
second birthday.
    It is painful for me to relive this experience and remember 
that suffering, but I am here because the world should know 
what is happening to so many children inside of ICE detention. 
My beautiful girl is gone, but I hope her story will spur this 
country's government to act so that more children do not die 
because of neglect and mistreatment.
    Mariee had always been a super happy, very healthy baby. 
She made the journey from Guatemala without any problems. We 
were held in CBP custody for three or four days in a facility 
known as ``la hielera,'' or the icebox, because it's freezing 
cold. We were locked in a cage with about 30 other people, moms 
and children, and forced to sleep on a concrete floor.
    We were sent to the ICE detention center in Dilley, Texas. 
A nurse examined Mariee when we arrived and found her healthy. 
We were packed into a room with five other people, mothers with 
children, a total of 12 people in our room.
    I noticed immediately how many sick children there were in 
detention, that no effort was being made to separate the sick 
from the healthy or to care for them. One of the little boys in 
our room was sick. As a mother, this was very hurtful to see. 
His mom tried to take him to the clinic, but they kept sending 
him back without being seen, without care.
    Within a week of being at Dilley, Mariee got sick, my 
little girl. First it was coughing and sneezing and a lot of 
nasal secretions. I brought her to the clinic, where I waited 
in line with many other, many other people in a gymnasium to 
get medical care. When the physician's assistant saw her days 
after, she said that Mariee had a respiratory infection and 
prescribed Tylenol and honey for her cough.
    The next day, however, Mariee was worse. She was running a 
fever of over 104 degrees and began having diarrhea and 
vomiting as well. She wouldn't eat, and I remember her head and 
her little body felt so hot and that she was weak.
    On this day, they told me that she had an ear infection and 
gave her antibiotics. I begged them to do deeper exams, but 
they sent us back to our room.
    I tried to come back multiple times to the clinic. I had to 
wait in line from early in the morning with dozens of other 
mothers with their sick children. Twice I was turned away and 
told to go back to my room.
    Mariee lost almost eight percent of her body weight in just 
10 days. She was still vomiting constantly. When she was 
finally seen by a doctor, they told me to give her Pedialyte 
and Vicks VapoRub. I didn't learn until after she died, when I 
was researching it online, that you aren't supposed to give 
Vicks to kids under two years old because it could cause 
respiratory problems.
    My baby got sicker. She was vomiting constantly. Her fever 
kept going up. She wouldn't eat or sleep. Her body was weak. 
And when I finally received a notice that Mariee had an 
appointment to be seen by a doctor, I was so relieved, though 
that didn't happen. We were told that we were going to be 
processed for transfer out of detention, and at that point I 
was relieved because I thought that I would actually be able to 
take her to see a doctor. As a mother, it was very important 
for me to do that. It was very difficult for me to see her 
suffering.
    What happened was that at 5 a.m. we were woken and taken to 
be processed for transfer out of detention, and there we waited 
for hours. She was not taken to the clinic to be seen by 
medical staff. I later found out that her medical record said 
that she had been cleared as someone with no medical 
restrictions. But it did not happen that way. She was never 
seen. And even though it says that on her records, as her 
mother I can say that she was not seen.
    I was terrified by the time our plane landed. We took 
Mariee to a pediatrician as soon as we could and just a few 
hours later to the emergency room. She was admitted to the 
intensive care unit with a viral lung infection. Over the next 
six weeks, she was transferred to another children's hospital.
    My little girl suffered horrible pain. She was poked and 
prodded and eventually needed a ventilator to help her breathe. 
I couldn't even hold her or hug her or console her when she 
asked for her mother. It was a terrible pain to see my child in 
a situation and circumstance like this one, and as a mother I 
wish that I could have taken her place.
    All of the hard work of these doctors came too late. My 
Mariee died on what is Mother's Day in my country. When I 
walked out of the hospital that day, all I had with me was a 
piece of paper with Mariee's handprints in pink paint that the 
staff had created for me. It was the only thing that I had 
left, and the nurses had given it to me as a Mother's Day gift.
    I'm here today because I want to put an end to this. It is 
very hard to see so many children and for none of them to be my 
daughter and to think that I will never see her again or hug 
her or enjoy being with her or tell her just how much I love 
her. It is very hard. You have no idea how hard it is to move 
forward without my little girl. It's like they tore out a piece 
of my heart, like they tore out my soul.
    I'm suffering every day. It is difficult to get up and move 
forward without her. I wanted to have a better life for her and 
a better future and work hard so that she could keep growing 
the way that she was, but now we won't be able to do that 
because she is gone.
    I'm here today to put an end to this and that we not allow 
any more children to suffer and die in this way. Mariee could 
be here with us, but she is not. Next month she would have been 
three years old. That is a very painful date for me. It's 
painful to not have her with me and show her what I feel and 
say what I want for her. I have no words to describe that.
    My daughter is gone. The people who are in charge of 
running these facilities and caring for these little angels are 
not supposed to let these things happen to them. Their parents 
have brought them here to find a better life and a safer life 
for their children.
    I'm here today because I don't want any more little angels 
to suffer the way Mariee did and the way I am now. I don't want 
any more mothers or fathers to lose children.
    It can't be so hard for a country like the United States to 
protect kids who are locked up. It is very hard. You don't know 
the terror that mothers and children feel when they see 
children in cages, hungry, cold, without the warmth of a home, 
just hundreds of other people in the same situation that they 
are in. It is very painful.
    If I had the power to change things and do it right and 
protect children, believe me that I would. I thank God for 
giving me a heart that is noble but weak. It is very painful to 
see what children are going through and to want to do something 
and not be able to.
    I want to thank you with all of my heart and I want God to 
bless each and every one of you by name. Thank you for the 
opportunity to be here and to be able to offer my testimony. I 
trust in God that you will have the power to change things and 
make a difference so that children and mothers will not have to 
suffer. It's a terrible thing. You have no idea the pain, what 
the pain is that this means to not have her here with me.
    So my infinite thanks to you. And if there's anything that 
I can do to make a difference, I will. Thank you.
    Mr. Raskin. Ms. Juarez, thank you for your testimony. Words 
cannot express the sympathy that we feel toward you. Words 
cannot express our sorrow at hearing your story. And words 
cannot express our gratitude to you for having the strength to 
come forward to tell about these horrific events that have 
taken place.
    If you're okay taking a few questions, I just have one or 
two, and then I'll turn to the ranking member to see if he has 
any and if any other members of the committee have anything 
that they want to ask you.
    In fact, let me start with you, Mr. Roy. We've gone over 
with the witness and I'm happy to donate the lion's share of my 
time to the witness' presentation. Do you have anything you'd 
like to ask?
    Mr. Roy. Ms. Juarez, I would just reiterate the statement 
of the chairman and the statement that I tried to open with, 
that--you said it--[speaking Spanish]. There are no words. And 
I am very thankful for your faith and for your blessing upon us 
and for your courage in being here, and thank you for being 
here.
    Mr. Raskin. You know, Ms. Juarez, our country is a Nation 
of immigrants. Except for the descendants of slaves and the 
Native Americans, all of us are here as immigrants or the 
descendants of immigrants. And our ancestors, our parents, our 
grandparents saw America as a land of hope and dreams and 
opportunity.
    And I know that you can't talk specifically about what you 
left behind in Guatemala for legal reasons, and your lawyers 
have advised you not to get into the detail there, but I wonder 
if you would talk to us about what America represented to you, 
what moved you to try to get to America with Mariee when you 
came.
    Ms. Juarez. Yes, of course. As you said, the United States 
is the land of opportunity, work, important doctors, and in my 
country, you know, they say the American Dream. So my wish and 
the purpose of bringing my child here was to move forward with 
her, to have her grow, and to be able to give her all of the 
things that I would not be able to give her in my country, 
because this is a country of freedom and opportunities.
    We had so many wishes and dreams when we came here, you 
can't imagine. But now it will definitely make that difference 
that the U.S. represents. It represents that dream and 
opportunity and work and freedom above everything else.
    Mr. Raskin. Thank you.
    I'm going to call on Mrs. Maloney from New York.
    And, members, you know, we're in sort of a modified five-
minute rule. Obviously, the witness has been through a lot, but 
if there's one or two questions you'd like to ask, I think that 
that works out well.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    And thank you, Ms. Juarez.
    This was very difficult, to hear your testimony, and I know 
it was even more difficult to give your testimony. So why are 
you here in what is such an obviously painful experience for 
you to remember the horror of what your Mariee went through? 
Why are you here?
    Ms. Juarez. I'm here today because I want to tell all 
people of all the world in all countries, especially in the 
United States, that we need to make a change and make a 
difference to actually care and protect kids more.
    ICE detention centers are terrible, inadequate places to 
lock children up, I am sorry to say, as if they were animals. 
It is difficult to have to say that. But I repeat that I'm here 
because I want to make a difference, to help more children, in 
the name and in the memory of Mariee. And if it's possible to 
make that difference and to make that change, believe me, I 
want that to happen.
    Mrs. Maloney. You described----
    Mr. Raskin. Mrs. Maloney, forgive me. I've learned that 
votes are about to be called in a moment. Would you be willing 
to cede to some other member so everybody could ask a question? 
Would that be okay? And I'll just recognize them.
    I saw, Ms. Tlaib, you had your hand, if you would like to 
ask a question.
    Ms. Wasserman Schultz, Ms. Ocasio-Cortez, Ms. Pressley.
    Ms. Tlaib. Thank you, Chairman.
    Ms. Juarez, thank you so much for being here.
    I wanted to ask, it's so important because you in many ways 
experienced something that we saw ourselves in many ways when 
we went to El Paso, but you referred to it as the icebox. You 
also talked about your daughter not getting access to care and 
so forth.
    Would you talk a little bit more about the conditions that 
you and your daughter were in? I think it would be really 
helpful for my colleagues to understand how it felt. You know, 
sometimes you don't think about this, but the food.
    When I went there, people were just like sleeping, just 
constantly laying down, and the children were jumping on top of 
the body. You know, the kids were energetic and jumping around. 
They were all, again, in the same facility. I think it's really 
important to talk about your experience while you were in our 
care.
    Ms. Juarez. Sure. When I was admitted into the ICE 
detention facility we spent a very cold night that entire early 
morning sleeping on concrete with what they--this gray thing. 
They said it was a blanket, but it's--so-called blanket--but 
it's not that for me.
    The food was not appropriate for a child. It didn't have 
the proper nutrients for the health of a child nor the proper 
hygienic situation. It looks like the food went through many 
hands, and that could be many more germs then that could make a 
child sick or an adult sick. And children don't really have the 
natural defenses to be able to ward off any kind of serious 
illnesses.
    In my experience with Mariee, she was a happy, healthy 
child, thank God, when we were back in our country. She didn't 
suffer any serious illnesses until we got here into the United 
States. But in the detention facility there were hundreds of 
people who were sick, children and adults. And it was very 
difficult to see that. It was very difficult to see hundreds of 
people standing in line trying to be seen for medical consults.
    And what happened to me and many other people is that we 
had to go back and be turned away without receiving that kind 
of help. And that to me seems like the most negligent thing, 
and that what would be necessary is greater attention and 
supervision to the health of children, which should be the 
priority.
    Mr. Raskin. Thank you.
    For one question, Mr. Clay, and then Ms. Wasserman Schultz.
    Mr. Clay. Thank you, Mr. Chairman. Let me make a statement 
and then ask one question.
    You know, this disgraceful detention policy starts at the 
top, starts with President Trump, Stephen Miller, who initiated 
this policy. DHS implements it. You know, we as Americans 
should be ashamed of what has transpired at these detention 
centers. And if you are not, you have lost your soul and 
compassion for others.
    Let me just ask one question. In your testimony, Ms. 
Juarez, you noted that you begged a nurse to examine Mariee's 
lungs after she had been coughing for over two weeks. Did the 
nurse give you a reason for not examining Mariee's lungs?
    Ms. Juarez. I was never given an explanation of why they 
didn't do more serious tests. Actually, one night we were in my 
room and we were going to go eat, and so I was trying to wake 
her up. And I shook her, wake up, we're going to go eat, and 
she didn't react.
    So obviously, as a mother, my reaction was to, you know, 
try to wake her up to go eat and to worry very much when she 
wouldn't wake up. And so I begged, after that point I begged 
that we be getting an appointment, because it was not able to--
we weren't able to see a doctor without having an appointment.
    So when we finally were seen, what they did was take her 
temperature and give her ice cream. And they told me that that 
would help with her fever. But I think that was worse for her 
lungs. In my country, when a child is sick, you cover them up, 
but not here. They give her a popsicle, which I think made her 
lungs sicker, but they said it was good for her fever. It 
actually made me wonder about the professionalism.
    And actually even I took her to see a doctor and she was 
vomiting in front of the doctor and they still wouldn't do any 
more serious tests with her. And I was just--I was saying, you 
know, whatever it takes, you can take me handcuffed if you want 
to, but I really wanted them to have her see a specialist, 
because it seemed that whatever she had was something more 
serious. You can tell just by the sadness in her eyes, and it 
was a very painful thing to experience.
    Mr. Raskin. Okay. So we're going to go to Ms. Wasserman 
Schultz, we're going to go to Mr. Roy, we're going to go to Ms. 
Pressley and Ms. Ocasio-Cortez, and I think that will take us 
to the end.
    So, Ms. Wasserman Schultz, you are recognized for a 
question.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Senora Juarez.
    [speaking Spanish].
    My question is focused on the medical record that makes it 
appear that your daughter was actually seen by a medical 
professional on March 25, 2018.
    First, no one warned you that your daughter may be too sick 
to travel? It says on the medical record that she was cleared 
for travel. Is that correct?
    Ms. Juarez. Yes.
    Ms. Wasserman Schultz. And just to be clear, on the date of 
this medical record, which is on the screen, Mariee did not 
actually see a doctor, correct?
    Ms. Juarez. Yes, correct.
    Ms. Wasserman Schultz. And so there was no medical 
evaluation of your daughter that actually happened on your last 
day in the facility, which was the day that this medical record 
was produced?
    Ms. Juarez. No, not at all.
    Ms. Wasserman Schultz. So, Mr. Chairman, what my concern 
is, is that if ICE medical records of migrants like Senora 
Juarez can be fabricated, which it appears that this one may 
have been, how many more fraudulent medical records might be 
out there?
    I mean, she's testifying here under oath. We have to get to 
the bottom of this and ensure that the medical records that are 
being produced by ICE are accurate and that they're not just 
making them up to cover up their neglect. It's unacceptable.
    Mr. Raskin. Thank you very much, Ms. Wasserman Schultz.
    Mr. Roy.
    Mr. Roy. Ms. Juarez
    [speaking Spanish].
    Ms. Juarez. Of course. After everything that happened in my 
country, I don't want to go back. I don't have my family here. 
I'm here now and my dream is to move forward, to work, to 
study, to learn, so that in the future when I am a mother again 
I could teach them everything that I fought so hard for and 
everything that I have struggled to study and learn along the 
way.
    Mr. Raskin. Thank you.
    Ms. Pressley.
    Ms. Pressley. Thank you, Mr. Chair.
    Ms. Juarez, I just wanted to state for the record that you 
did nothing wrong and you certainly did nothing to deserve 
this. Seeking asylum is a human right and you did what any 
mother or parent would have done for their child. You 
sacrificed everything for your safety and the safety of your 
baby. You left everything you knew for the chance of a better 
life.
    You said that you have a noble but weak heart. You 
underestimate your strength. And in this moment, you are 
embodying every American ideal that we espoused that we do, and 
I thank you for that.
    It is unfortunate that our country is no longer standing by 
its promise of being a beacon of hope and haven for those like 
you seeking asylum. Instead, this administration has 
criminalized families and is now operating a fundamentally 
flawed system that is systemically separating families and 
engaging in human rights abuses on U.S. soil.
    So all I want to say to you from the bottom of my heart, as 
a mom, as an American, and as a human being, is that I am 
sorry. I am so very sorry that we have failed you.
    And I also want to say that I will never forget what you 
shared with us today even if I'm tempted to or want to because 
it is painful and traumatic and shameful, but I refuse to 
forget. We will not forget you or Mariee. We will not look 
away.
    Thank you.
    Mr. Raskin. Thank you, Ms. Pressley.
    Ms. Ocasio-Cortez.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair.
    Gracias, Senora Juarez
    [speaking Spanish].
    Ms. Juarez. No.
    Ms. Ocasio-Cortez.
    [Speaking Spanish.]
    Ms. Juarez. No.
    Ms. Ocasio-Cortez.
    [Speaking Spanish.]
    Ms. Juarez.
    [Speaking Spanish.]
    Mr. Raskin. Excuse me just for a moment. Let's translate 
unless
    [speaking Spanish], but I think probably not. So if you 
could translate the last exchange then.
    The Interpreter. To the first question, about whether there 
is safe and sanitary conditions as mandated under U.S. law, in 
her opinion the answer was no.
    To the second question, about whether or not there was a 
culture of cruelty that she saw under ICE conditions, I guess I 
can get into the answer of that so far, which was that when I 
was in detention, when I was in the cage and we had a phone 
interview with immigration and ICE officials, they asked me why 
I was here.
    Ms. Juarez.
    [Speaking Spanish.]
    Ms. Ocasio-Cortez. I'll let her translate quickly, but
    [speaking Spanish].
    Ms. Juarez.
    [Speaking Spanish].
    Ms. Ocasio-Cortez.
    [Speaking Spanish].
    Ms. Juarez. No.
    Ms. Ocasio-Cortez. Gracias.
    Ms. Juarez. As to the question as to being on the telephone 
during the interview of why I was here and what I had come for, 
and I responded that I had come here, you know, I was talking 
about my child's future, but they wouldn't let me talk and they 
said, you know, this country is for Americans, Trump is my 
President, and we can take your little girl away from you and 
lock you in jail. And I just started to cry, because I really 
didn't have any words to respond to that. And that situation, 
to me, that is mistreatment.
    To the question of were you called crude names, personally, 
no, but it was the nastiness of the words that were the strong 
words that were used to me like what, like just calling me an 
immigrant, but not really letting me respond when they used 
strong words toward me and to really be able to give them any 
kind of appropriate response.
    To the question of did you feel safe, no.
    Ms. Ocasio-Cortez. And, Mr. Chair, I just think it's 
extremely important that this is noted, that this is not an 
issue--you know, there are debates about money and resources. 
That's for another day. But what is being pointed to here is a 
culture of cruelty.
    To have a CBP officer tell a migrant woman escaping 
unspeakable horrors in her home country and tell them this 
country is for Americans and to threaten separating her from 
her daughter, to threaten a human rights violation, is 
extraordinarily concerning and at a bare minimum grounds for 
serious investigation by this committee and other entities.
    Thank you.
    Mr. Raskin. And that's what we're doing. So thank you very 
much, Ms. Ocasio-Cortez.
    Were there any other members who had any other questions 
that they wanted to ask?
    Ms. Kelly, did you have anything or no?
    Ms. Kelly. Not really a question. The questions have been 
asked.
    But just to give my sympathy and sorry and hope in your 
quest that this will never happen again to anybody else. But 
thank you for sharing.
    Mr. Raskin. Ms. Juarez, your story has broken the heart of 
America, but your courage gives us a second chance to get it 
right. So we want to thank you what you've done, and you have 
friends and admirers on this committee for coming forward.
    We are going to recess for the purpose of voting. We will 
resume with the second panel immediately after votes.
    [Recess.]
    Mr. Raskin. Good afternoon. The committee will reconvene.
    I want to thank all of our extraordinary witnesses who have 
come to be with us today: Michael Breen, who's president and 
CEO of Human Rights First--thank you for coming--Hope Frye, who 
is the executive director of Project Lifeline; Clara Long, the 
deputy Washington director for Human Rights Watch; Dr. Carlos 
Gutierrez, who is a pediatrician in private practice; and 
Ronald Vitiello, who is the former chief of U.S. Border Patrol 
and the former acting director of ICE.
    I will begin by swearing all of you in. Please rise and 
raise your right hand, if you would. Thank you.
    Do you swear or affirm the testimony you're about to give 
is the truth, the whole truth, and nothing but the truth, so 
help you God?
    Let the record show that all of the witnesses answered in 
the affirmative. Thank you. Please be seated.
    Please speak into the microphone. Your written statements 
will be made part of the record, without objection.
    And with that, Mr. Breen, you are now recognized to give an 
oral presentation of your testimony.

   STATEMENT OF MICHAEL BREEN, PRESIDENT AND CHIEF EXECUTIVE 
                  OFFICER, HUMAN RIGHTS FIRST

    Mr. Breen. Mr. Chairman, thank you, and thank you for 
holding this important hearing and for the opportunity to be 
here today.
    For over 40 years, Human Rights First has representing 
asylum seekers in the American legal system. We helped draft 
the Refugee Act of 1980. Today, we have clients in needless 
detention, clients who have been forced back to Mexico under 
the MPP policy, who are struggling with access to counsel, who 
are deliberately deprived of their medication, and who have 
been accused of no crime.
    There is no reason why there needs to be a burgeoning human 
rights crisis at the border or the human rights and due process 
violations we are seeing every day. This is the predictable 
result of deliberate policy and gross incompetence by the 
administration. There are better answers. There are tons of 
better answers.
    My written testimony submitted to this committee, along 
with numerous reports and recommendations by Human Rights First 
and others, lay out a clear path forward that respects human 
rights and safeguards our Nation, and I hope we can talk about 
those things.
    But right now, I would like to try and keep a promise I 
made yesterday in Juarez, in El Paso, before I came back to my 
own daughter, to other parents. In overcrowded rooms filled 
very far away from this one, including a church sanctuary 
converted into a shelter for over 100 people, I promised other 
parents trying to get back to their kids, parents who, like Ms. 
Juarez, spoke of their continued belief in the United States of 
America and their abiding faith in God. I promised them that I 
would do my best to make their voices heard here today.
    The 18-or 19-year-old girl who stood up in a crowded 
immigration court looked a judge in the eye with all the 
courage she could muster and asked him to get her back to her 
daughter. She'd survived a rape at age 13, and when she reached 
the border to seek asylum, she didn't have the proper paperwork 
so she was separated from her five-year-old child.
    And then she was sent to CBP detention, the so-called ice 
boxes, for 50 days, when guidelines say three, three days, 50 
days, then taken to Juarez, dropped off, and told to fend for 
herself until after her hearing. The judge was powerless to do 
anything but ask the government's representative and attorney 
from DHS to make a note of it.
    Since there is still no system in place for keeping track 
of separated families and making sure they get back together, 
who knows what good that note will do.
    The many refugee families I met with in Juarez, including a 
woman who had requested asylum with her partner and their two 
children, they were taken to that now infamous makeshift camp 
under the bridge. After about three days in terrible 
conditions, her five-year-old was too weak to stand. She told 
me she begged an officer for help. Help me, she said, my child 
is dying. And she told me the officer replied, and I quote, 
well, are they dead yet? Then shut up and stop crying.
    She said that she and others called the television crews 
outside the fence for help and were soon sent to a tent camp in 
the desert she described as even worse. There they were told 
the conditions were punishment for trying to talk to the media, 
and that if they tried it again, things would get even worse.
    Finally, her daughter collapsed and lost consciousness. At 
that point, she and her daughter were taken to the hospital and 
treated for severe dehydration. When they got back to the camp, 
her partner and her other child had been moved to another 
facility. That was the last time she saw them. Then she too was 
left in Mexico to fend for herself and her child, where I met 
her, in a place where kidnapping, assault, and rape of asylum 
seekers is an everyday occurrence.
    I could go on and on. This is no longer just about the 
integrity of our borders. This is about the integrity of our 
Nation.
    Mr. Chairman, I want to say one other thing. I know what it 
means to wear the American flag on my shoulder when I go to 
work every day. I'm a proud member of a law enforcement family. 
I served as an Army officer myself. And through my years of 
training and of service, it was drilled into me again and again 
that when you wear that flag, you carry with you the honor and 
the values of this entire Nation, that your conduct defines the 
ideals and the meaning of that flag in the eyes of the world.
    In two wars, I saw men and women alongside me make 
unbelievable sacrifices to uphold those values and those 
ideals. Thousands and thousands of us held that line. Thousands 
and thousands continue to try to do that right now. It's not so 
that the Congress of the United States will stand by while 
American officials are ordered to conduct a policy of 
deliberate cruelty against children, stand by while men and 
women wearing that flag are ordered to pull children younger 
than my own daughter out of their parents' arms and then 
knowingly deliver defenseless families into the arms of 
criminal gangs to suffer kidnapping, assault, and rape.
    This is not the America it was the honor of my life to 
serve. I cannot believe it is the America this Congress wishes 
to leave, and I cannot believe that this is the legacy that any 
of you want for your public service. But unless you act, it 
will be.
    Thank you.
    Mr. Raskin. Mr. Breen, thank you very much.
    Ms. Long, you are recognized for five minutes.

  STATEMENT OF CLARA LONG, DEPUTY WASHINGTON DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Long. On behalf of Human Rights Watch, I want to thank 
this Subcommittee on Civil Rights and Civil Liberties for the 
opportunity to testify at today's hearing.
    Human Rights Watch is a nonprofit, independent organization 
that investigates allegations of human rights violations in 
more than 90 countries around the world, including in the 
United States.
    I am the acting deputy Washington director and a senior 
researcher on immigration at Human Rights Watch, and I have 
over a decade of experience covering border and immigration 
issues. Since 2016, I have served as a detention monitor and 
consultant with the Flores Settlement legal team, visiting 
children detained in the Brownsville, Texas, Casa Padre 
facility; the now-closed tent facility in Tornillo, Texas; in 
Homestead, Florida; and those held in Border Patrol stations in 
California, Arizona, and most recently, Texas.
    From June 17 to June 19 of this year, I was part of a 
monitoring team that interviewed children in Border Patrol 
stations in the El Paso area about their protections under the 
Flores Agreement, which is a decades' old, as you know, class-
action settlement obligating the U.S. Government to release 
migrant children expeditiously and to adhere to certain 
detention standards.
    What we found was outrageous. Our interviews with nearly 70 
children in the El Paso sector revealed that the U.S. Border 
Patrol is holding many children, including some who are much 
too young to take care of themselves, in overcrowded border 
jails for weeks at a time without contact with family members, 
regular access to showers, clean clothes, or toothbrushes. Many 
were sleeping on hard floors. Many were sick. Many, including 
children as young as two or three, were separated from adult 
caretakers without any provisions for their care besides that 
provided by unrelated older children also being held in 
detention.
    On my first day in the Clint Border Patrol Station, I spoke 
with an 11-year-old boy who was caring for his three-year-old 
brother. They had been fending for themselves in a cinderblock 
cell with dozens of other children for three weeks. When I met 
them, the little one was quiet. He had matted hair, a hacking 
cough, muddy pants, and eyes that were fluttering closed. As we 
spoke, he fell asleep on two office chairs drawn together. 
``I'm the one who takes care of him here. No one helps me take 
care of him,'' his brother told me.
    My son is almost three, and sometimes when I'm with him 
these days, I find it difficult not to think of the 
excruciating moment when I had to send those two alone back to 
their cell.
    Like these boys, nearly all the children I met in Border 
Patrol detention were visibly dirty, mucus or mud stained. They 
were nearly all wearing the same clothes that they had worn 
when they crossed the border. They told us they were not given 
regular access to soap or toothbrushes. They were given access 
to showers only once or twice in a period of weeks, if at all. 
Unsurprisingly, infectious disease appeared widespread.
    ``I went into the flu cell for seven days. I had a fever in 
there and I was shaking. Some of the other kids were vomiting. 
They all had fevers. No one was taking care of the kids with 
the flu. We were not allowed to leave the flu cell ever,'' a 
14-year-old girl told me.
    We and others have been raising the alarm about deplorable 
hygiene practices, abuse, and mistreatment in Border Patrol 
detention for some time. What was unprecedented in these visits 
is that the agency is now needlessly subjecting children to 
crowded, inhumane conditions for lengthy periods far beyond the 
72-hour limit required by U.S. law, compounding potential harm.
    ``Sometimes when we ask, we are told we will be here for 
months,'' said one 14-year-old girl, who said she had already 
been in Clint for three weeks. Despite these prolonged lengths 
of stay, we found no evidence that anyone had made any attempts 
to reunite children with their family members in the United 
States. Indeed, many of the children we spoke with had been 
separated from their families and were deeply traumatized as a 
result.
    ``The officers took my dear grandmother away. We have not 
seen her since that moment. Thinking about this makes me cry at 
times,'' the words of a 12-year-old girl detained alone at 
Clint with her eight-and four-year-old sisters.
    These abuses are not happening in a vacuum but in the 
context of a concerted effort by this administration to punish 
and deter asylum seekers, including by returning thousands of 
families to Mexico to dangerous conditions and severe 
injustice. No one should support child abuse as immigration 
policy.
    Congress should exercise strenuous oversight to ensure 
children are quickly released from detention and guarantee 
their safety and well-being while detained. Families belong 
together and free. Children should be allowed to remain with 
adult family members, when that's in their best interest, and 
be promptly released, with appropriate support, to ensure they 
appear for immigration proceedings. Issuing CBP and its parent 
agency DHS a blank check to expand the system for detaining 
children will only increase the permanent harm already being 
suffered.
    Thank you.
    Mr. Raskin. Thank you very much, Ms. Long.
    Ms. Frye.

  STATEMENT OF HOPE FRYE, EXECUTIVE DIRECTOR, PROJECT LIFELINE

    Ms. Frye. Chairman Raskin, members of the subcommittee, 
thank you for this opportunity to testify before you. I'm an 
attorney with more than 40 years experience practicing 
immigration law.
    Mr. Raskin. Please put your mic on.
    Ms. Frye. Oh, sorry. Okay?
    I coordinate and lead monitoring visits to CBP, ORR, and 
ICE facilities on behalf of Flores counsel. I selected the 
attorneys and was team lead on a Flores monitoring visit to the 
Rio Grande Valley Border Patrol Stations from June 10 through 
14.
    While public attention is focused on hideous conditions at 
the Clint CBP Station in El Paso, the situation at border 
facilities in the RGV are substantially the same. What 
distinguishes the RGV sector is the 2017 Federal court decision 
that found them in violation of Flores for failing to provide 
adequate food, adequate access to drinking water, adequate 
hygiene, and adequate sleeping conditions, and by keeping the 
temperatures too cold.
    They have had two years to remedy these failures. What have 
they done? Nothing. Children in the RGV are still going hungry. 
They're given nonnutritious food and not enough of that. Pureed 
food necessary for infants six to 12 months is completely 
missing. When there are bottles and formula, there's no way to 
wash the bottles, so they become contaminated. Some of the 
babies were breastfed. Their moms complained they got 
inadequate water to assure milk production.
    The children we saw were filthy, wearing the same wet and 
muddy clothes in which they traveled. Many were covered in 
mucus and vomit. Babies had soiled diapers. The children 
smelled foul.
    No child had warm clothes, despite the extreme cold in the 
holding areas. Babies were in onesies with no sweater, jacket, 
or socks. Some children had showered but many had not, like the 
17-year-old mother with a 10-month old son had been held more 
than 20 days without showering.
    It's outrageous that these conditions still exist. The 
government is not only flouting the rule of law, it's 
terrorizing the children.
    Influenza killed a boy in the RGV three weeks before our 
arrival. We found nearly every one of the children we met sick 
with the flu, differing only in the severity of their symptoms. 
I met a 16-year-old girl and her eight-month-old daughter. The 
baby was extremely ill, lethargic, with a deep, continuous 
raspy cough. She'd had a mild cold when they arrived, but CBP 
took the baby's medicine and clothes. Despite the raging flu, 
for which the entire facility had been under recent quarantine, 
the baby had not received any medical attention.
    After rigorous advocacy by the Flores counsel, we were 
allowed to bring a pediatrician into the Ursula facility. After 
the pediatrician's visit was announced, five infants, whom we 
had seen before, were taken to the hospital to the natal 
intensive care unit.
    We began our CBP visit on Monday. On Wednesday night, I got 
sick. I had a fever, 102.5, vomiting, diarrhea. I developed 
this deep, racking, continuous cough, the same cough many of 
the children had.
    At 4 a.m. on Friday, I called 9-1-1. The ER doctor ordered 
me admitted to the hospital. I had influenza A. I caught it 
from the children. I was put in isolation, given IV fluids and 
medicine. They began respiratory therapy every three hours. I 
had a five-day course of Tamiflu.
    Contrast this with the children. We had the same disease, 
but they had to plead for medical attention. If they got it, 
they were probably given something for the fever and some, but 
not all, were maybe given a few doses of Tamiflu. Most were 
returned to the packed cages in the same freezing rooms to 
sleep on the concrete and to transmit the flu to other children 
held with them.
    It's child abuse, pure and simple, like the case of the 
premature newborn baby I'll call Baby K. After traveling from 
Guatemala, her mom, just 17, had an emergency C-section in 
Mexico. Baby K was born a month premature. As is the case with 
every migrant with whom we spoke, mom was forced to throw away 
her things. This included her backpack containing Baby K's warm 
clothes.
    They had been in detention seven days when we met, kept in 
a freezing cold, crowded cage without soap, a toothbrush, a 
shower, or clean clothes. Baby K was nonresponsive and looked 
at risk of dying. Immediately after encountering Baby K and 
mom, I brought the senior-most attorney for the government to 
see them. She was obviously disturbed and took the information 
necessary to gain release to an ORR shelter. Despite this and 
massive other intervention, it took the government over 2 days 
to transfer Baby K and mom to ORR custody.
    The administration would have us believe that the number of 
arriving children is delaying release from CBP and creating the 
subsequent need to warehouse children in unregulated, influx 
facilities like Homestead. But the real culprits are the policy 
that slow the rate of release from ORR shelters by imposing 
restrictive and unnecessary requirements for the vetting of 
family sponsors.
    Rather than providing funds to detain additional children, 
Congress should be working to ensure their expeditious release 
to their families who are far better suited to care for these 
children than a government that is causing them so much harm.
    Thank you, Mr. Chairman.
    Mr. Raskin. Thank you very much for your testimony.
    Dr. Gutierrez.

     STATEMENT OF DR. CARLOS A. GUTIERREZ, M.D., F.A.A.P., 
                  PEDIATRICS, PRIVATE PRACTICE

    Dr. Gutierrez. Thank you very much, Chairman Raskin and 
Ranking Member Mr. Roy. Thank you subcommittee members, 
congressional subcommittee members, for the opportunity to 
speak to you concerning the medical aspects of what I am faced 
with as a private pediatrician in El Paso, Texas.
    I am, as you might say, in the front lines of taking care 
of these men, women, and children. As a pediatrician, we don't 
have any age limits because we have to take care of adults as 
well.
    Let me tell you, I got involved with doing this in the year 
2014 when we had a lot of the Central American refugees arrive 
on our borders. And at that time, the Border Patrol was kind 
enough to ask for our help, the community, the community 
physicians. And they asked us if we would be present on arrival 
when the refugees would be arriving at the Border Patrol 
detention facilities.
    We were glad to help. There were about 20 of us who were on 
call every day. We provided excellent care. As soon as they 
would arrive from the buses, things went smoothly, not one 
death.
    Fast forward to the year--last October, we had the same 
situation where we began having a lot of refugees arrive on our 
border city. And being naive, I thought, well, okay, let's do 
it the way we did last time. We did a great job taking care of 
the medical needs of the refugees.
    I approached individuals who I thought would be able to 
give us permission and told them that we had between 50 and 100 
physicians, pediatricians, adult doctors, OB-GYNs, pharmacists, 
dentists. We were ready to step in and do whatever we could to 
take care of their needs. We were told, thanks, but no thanks. 
We do not need your help. And I was flabbergasted. I says, how 
the heck could--can they say that?
    And I mean I tried. I tried. We went through our 
Congressman, Congressman O'Rourke, later on through 
Congresswoman Veronica Escobar, to no avail. We were not 
allowed to gain access to the Border Patrol detention 
facilities.
    Our feeling as a doctor, as a pediatrician especially, is 
that if we could get there right as soon as they could--they 
would arrive to the centers, we could really make a difference 
and prevent a lot of catastrophes like what we heard today in 
some of the past deaths.
    We pediatricians have trained in taking care of kids for 
three to five years, just in kids. We know how to pick up 
subtle signs that would indicate that, oh, man, this kid is 
going to get pretty sick. Because a child is not a small adult. 
A child is a child, a pediatric patient who can be running 
around and playing with 103, 104 fever, and within half hour 
can just crash on you. And if you don't know how to pick up 
those subtle signs, you're in for a bad outcome.
    And I've got to tell you that this is not the fault of the 
Border Patrol, because Border Patrol or ICE, they're not 
trained to take care of things like that. They may be able to 
have individuals like EMTs, like individuals who can maybe take 
a blood pressure, take a temperature, but you need a doctor 
right there. You need especially a pediatrician to prevent some 
of the catastrophes that have happened in the last couple of 
years.
    Let me tell you, I had a child that was--they called me on 
that had been released from the shelter. And this two-year-old, 
105 fever, listless like a rag doll. I looked at her and 
immediately called our ambulance from our children's hospital 
to pick her up. She ended up having bilateral pneumonia. I 
talked to the mom, and she said she asked for help but no 
medical help was available.
    And day in and day out, I see these patients and I ask, did 
you get any medical help there? And in my experience, they 
either receive little or no medical care at all. And what 
really Ps me off is that if we're not allowed to get into those 
medical--into the refugee centers to take care of things right 
on, at least let whoever is taking care of those patients 
communicate with us on the outside.
    You would--I think it's--you know, it would be hard for you 
to fathom, but they--whoever is taking care of these 
individuals in the Border Patrol facilities are not allowed to 
communicate with us. What's their excuse? Oh, we have to 
respect the privacy of the refugee. That's a crock, you know 
that? That is just not right.
    You know, that's not the way real medicine is practiced. 
Real medicine is to where a doctor, if they have to refer 
somebody to another specialist, they can communicate. They are 
not allowed, if there's even anybody at those detention centers 
taking care of the medical needs.
    Not only that, the medicines are taken away from them. 
Whether they have a history of seizures, high blood pressure, 
asthma, diabetes, they are taken away and they are not given 
back to them. So when they arrive to our facility at the 
shelters that we work at, they--parents tell us that my son was 
on this, this, this. Well, gosh, we have to guess what kind of 
medicine they're on and start all over and at least get them 
through until they go to their final destination.
    This is not right. At the very least I hope you who have 
the power to do this can make an immediate change. First of 
all, ideally, I would love for you to allow us in the community 
access to those shelters. We could make a tremendous 
difference. And you know what? It's pro bono. You don't have to 
sign a contract with anybody. This is pro bono.
    Second, if you're not going to be able to allow us to get 
into those facilities, then let whoever is in there take--give 
us--you know, give us information, be able to give us 
information. Hey, we have somebody with chickenpox, with 
measles or whatever, so that we can be aware of what we're 
expecting. That would be so, so beautiful.
    This is not a right-wing, this is not a left-wing issue. 
This is not a Democrat or Republican issue. This is a human 
being issue, and this is something that is so basic to our 
country, to human beings. We need to take care of these 
individuals the way we would take care of our own children. 
They deserve the love and the respect that every one of you 
receive.
    Thank you.
    Mr. Raskin. Thank you, Dr. Gutierrez.
    Mr. Vitiello, you are recognized for five minutes.

  STATEMENT OF RONALD D. VITIELLO, FORMER CHIEF, U.S. BORDER 
    PATROL, FORMER ACTING DIRECTOR, IMMIGRATION AND CUSTOMS 
                          ENFORCEMENT

    Mr. Vitiello. Chairman Raskin, Ranking Member Roy, 
distinguished members of the subcommittee, thank you for the 
opportunity to testify regarding our current crisis on the 
southwest border.
    Let me start by offering my condolences to Ms. Juarez on 
the death of Mariee. I'm sorry for her loss. We must change 
conditions that encourage people to bring or send their 
children to the border.
    I began my career in 1985 as a Border Patrol agent in 
Laredo, Texas. It was a very different time and a different 
border. Law enforcement knew well the threats of drug and alien 
smuggling. Border communities that welcomed me and agents were 
the ones most concerned about border security.
    Let me describe a typical scenario of what I participated 
in as it is occurring in some form on the border today. In most 
of my career of the illegal traffic and smuggling were people 
from Mexico. When arrested, people from Mexico without a 
criminal history are offered a voluntary return, which in most 
cases occurs within hours of their arrest.
    After the arrest, the person is taken to a Border Patrol 
station. They are interviewed. Their biographic and biometrics 
are recorded, and they are safely returned to Mexico. When 
someone from other than Mexico or Canada is arrested at the 
border, they are similarly detained, interviewed, biometrics 
and biographical records are taken in order to create a file 
which is used to place them in removal proceedings.
    The individual is then transferred into ICE custody. While 
in ICE detention, they are placed on the immigration court 
docket. Within a few weeks, their case is heard, perhaps 
alongside an asylum claim. The court reviews their 
circumstances and renders a decision. Those ordered deported 
are held and repatriated in collaboration with their home 
country.
    When an unaccompanied child is encountered at the border, 
the process is the same at CBP, interview, file creation, but 
instead of ICE custody, the child is referred to Health and 
Human Services, HHS. The HHS oversees grantees who operate 
shelters for these children. At the shelters, they are cared 
for holistically until such time as they can be placed with 
family members in the U.S.
    When families are encountered at the border, they face a 
similar CBP process. They are interviewed, a file is created, 
and they are eventually released. So far this year, CBP 
apprehended 500,000 families and children. Most of them were 
released into the United States. That's an average of nearly 
2,000 people caught and released every day this fiscal year. 
This catch-and-release scenario is adding the equivalent 
population of Atlanta, Georgia, to the United States so far 
this year.
    The catch-and-release problem is incentivizing more people 
to leave home for a treacherous journey that subjects them to 
unscrupulous smugglers, criminal cartels, and foreign corrupt 
officials. Once released in the U.S., some of them are in the 
margins of our society. In 2016 and 2017, 28 murders took place 
at the hands of MS-13 on Long Island, New York. This crisis 
forced state, local, and Federal officials, including ICE, to 
focus on the problem comprehensively.
    After removing and arresting thousands of illegal gang 
members, the murder rate dropped 90 percent. One-third of the 
felony arrests that ICE made in this crackdown were gangsters 
who entered the U.S. illegally as children. The border security 
crisis and conditions at the border will only improve if the 
flow is reduced.
    I know this is the case because in 2014, under President 
Obama's leadership, we faced a similar surge of children and 
families at the border. The President declared it an emergency 
and directed agencies to make every effort to address it. The 
conditions were bad and the system was overwhelmed.
    The 2014 surge was less than one-fourth as big as today's 
surge. Border Patrol and ICE were given additional resources 
and used those resources to improve conditions. Effectively, 
those resources ended catch and release for families. For most 
of 2015, the surge at the border ended. Why? Because DHS began 
repatriating those families that did not qualify as asylees.
    Without the release incentive, other would-be illegal 
crossers elect to stay home. We cannot expect to control the 
border if three-fourths of those arrested are released.
    What I have learned is there's not one thing that can fix 
what is occurring now. I urge Congress to give DHS and its 
components authority and capability to end this crisis.
    First, pass legislation that fixes Flores. The surest way 
to reduce the flow is to change the incentives. Allow DHS to 
hold families in custody during immigration proceedings. If 
families are held in custody for their due process and removed 
after a deportation order, others will stay home.
    Second, fully fund the required resources to fully 
implement the historic Migrant Protection Protocol, port 
courts, and facilities for migrants waiting in Mexico to 
quickly have a hearing and adjudicate their cases.
    Third, pass legislation that allows for UACs to be treated 
under the law the same way we treat Mexican and Canadian UACs.
    Fourth, reduce the rhetoric that blames U.S. officials for 
faithfully enforcing the laws that are on the books. The agents 
and officers of DHS took an oath to follow the law. UACs must 
be processed and turned over to HHS so they can be placed in 
shelter care. Families must be placed in proceedings before 
release.
    Fifth, fully fund the Border Security Improvement Plan 
designed to provide the necessary personnel, technology, and 
infrastructure to substantially meet the expectation of the 
American people for a secure border.
    Sixth, pass legislation that sanctions state and local 
jurisdictions for failing to cooperate with immigration 
enforcement.
    Seventh, fully staff and fund the Immigration and Customs 
Enforcement, ICE, agency. If we believe in immigration is a 
benefit to our country, enforcement must be funded.
    Each of these items are required to fully address the 
problem of an uncontrolled border and restore integrity to our 
immigration system.
    I appreciate the opportunity to inform this Congress and 
stand ready to assist with expertise as needed. Thank you.
    Mr. Raskin. Thank you very much for your testimony. I 
appreciate it.
    And, Dr. Gutierrez, let me start with you. What exactly is 
the access that doctors and physicians outside of the system 
have to kids and families that are presently in the custody of 
the detention centers?
    Dr. Gutierrez. Since we are not allowed into the border 
detention--Border Patrol detention facilities, our group of 
physicians, there's a core group of us, about six or seven of 
us who are responsible for the day-to-day care of the refugees. 
And so once they are released, the individuals are released 
from Border Patrol facilities, they are sent to shelters around 
the city. There's about 25 to 30 shelters in El Paso. And we 
are call--we are responsible for a certain number of these 
shelters.
    When they arrive to the shelters, we physicians are called. 
We go over there and make our daily rounds. We check on the 
patients, and the most--the sickest ones, we take care of their 
needs right away. I mean, we--there's no way we can see all of 
them and--but we'll--at least we pick up the sickest ones and 
we act on them as best we can.
    And in our experience, some of the sick--real sick ones, 
frankly, should have been picked up way before where they were 
housed.
    Mr. Raskin. Thank you.
    Mr. Breen, I'd like to ask you, if you could galvanize 
public and congressional attention to focus on it and we could 
get one thing done at this point to improve conditions, what 
would you do? And I want to ask that of all the witnesses here.
    Mr. Breen. Sure. We know that when families are represented 
by counsel who seek asylum, the appearance rate in court is 99 
percent. We should end unnecessary detention. We should move to 
a case management system, which DHS itself prototyped and then 
ended in 2017, very successfully. And we should end the Migrant 
Protection Protocol.
    If you will allow, Mr. Chairman, I'd like to read you 
something very briefly, very briefly.
    Mr. Raskin. Okay.
    Mr. Breen. Violent crime such as murder, armed robbery, 
carjacking, kidnapping, extortion, and sexual assault is 
common. Gang activity, including gun battles and blockades, is 
widespread. Armed criminal groups target public and private 
passenger buses, as well as private automobiles, traveling, 
often taking passengers hostage and demanding ransom payments. 
Federal and state security forces have limited capability to 
respond to violence in many parts of the state.
    Mr. Chairman, that is the State Department's assessment of 
the section of Mexico near Nuevo Laredo where DHS is currently 
dropping off asylum seekers to fend for themselves on a daily 
basis. MPP is a human rights violation. It needs to end 
immediately.
    Mr. Raskin. Thank you very much.
    Ms. Long, same question to you. If there is something that 
we could do immediately to try to restore some order and safety 
to this situation, what would you advise us to do?
    Ms. Long. Well, I'll endorse Mr. Breen's call to end the 
Migrant Protection Protocols. But I'll also say that the most--
the easiest way to ensure that children do not suffer harm and 
that more children do not die in custody is to invest in 
release and reunification, to invest in keeping families 
together, ensuring that adult family members stay with 
children, when that is in the child's best interest, which it 
is in most cases, to ensure that the person who is making the 
decision about whether that is in the child's best interest is 
not a Border Patrol agent who is not qualified to make that 
decision, but is instead someone who has professional 
experience in child welfare.
    You know, one of the things that, you know, we were 
concerned about, about the supplemental bill, was the fact that 
there is an overinvestment in increasing detention space but an 
underinvestment in increasing resources dedicated to release 
and to reunification.
    Mr. Raskin. Very good.
    Ms. Frye, same question to you.
    Ms. Frye. Well, of course, I endorse what both of my 
colleagues said. And I want to drill down a little bit on what 
Clara said, because I agree that while the cruelty starts at 
CBP, the real clog in the pipeline is at ORR and has to do with 
release.
    This entire situation--and, of course, we need the 
protections of Flores at CBP. We need to look at that, and I 
don't think that's a money issue. I think that's a release 
issue. But we need to turn ORR from a detention agency to a 
release protocol agency.
    We need to look at the system of for-profit contractors 
that we employ publicly to house for prolonged periods 
children, migrant children, to see do they have robust programs 
for release or are they deincentivized to do that by the per-
head, per-night, per-bed money that they get.
    So I think--like Clara, I think focusing on release and the 
many ways that there are affirmatively to do that is where to 
start.
    Mr. Raskin. Okay. Very good. And I want to just give our 
two other witnesses a chance to respond.
    Dr. Gutierrez.
    Dr. Gutierrez. Yes, sir. There's two organizations that 
have submitted their recommendations, basically what I would be 
telling you right now. The American Academy of Pediatrics and 
the National Hispanic Medical Association have both stated that 
there is an abundance of pediatricians, doctors that are 
willing to step in, step up to the plate, and provide care 
right in their facilities.
    But what I would love to see is, first of all, in a dream 
world, I would love for you all to take action to allow us 
entrance into the facilities so that we can take care of the 
medical issues right away.
    And second, if you're not going to allow us in, please have 
whoever is taking care of those individuals, please let them 
communicate with us with what's going on there, so we know when 
to expect a very sick individual, so we know how to be 
prepared, best prepared to care for that individual.
    The other thing is, if you're going to take away their 
medicines, at the very least give us a list when they--we 
receive them of the medications they've been on so that we're 
not guessing, and, for all we know, we might give them the 
wrong medicine and do more harm than good. So I would hope that 
you all can act and act soon on those things.
    Mr. Raskin. Thank you so much.
    Mr. Vitiello.
    Mr. Vitiello. As I said in my testimony, there needs to be 
a change in the way the law is operationalized. If we do not 
reduce this flow, these conditions will continue to exist as 
they are now. When your capacity for short-term detention, 
which is only designed for a 12-hour stay, right, they've made 
lots of modifications to all these locations. But if you don't 
reduce the flow, you're going to continue to get the same thing 
that we've seen for the last seven, eight months. It's bad and 
it's getting worse.
    The supplemental funding will assist in ameliorating some 
of the conditions that have been spoken about here today, but 
next spring, we're going to be exactly in the same place we are 
now if the law does not change.
    Mr. Raskin. Thank you.
    Mr. Roy, you're recognized for your five minutes.
    Mr. Roy. Mr. Chairman, I think we're going to go first to 
Mr. Meadows.
    Mr. Raskin. Okay. Mr. Meadows, you are recognized.
    Mr. Meadows. Thank you, Mr. Chairman.
    It's good to see you again. I miss you, and I thank you for 
your expertise, because I know that, from my standpoint, you've 
always shot straight with me, and you've told me the things I 
didn't want to hear and also the things that perhaps I needed 
to hear. And so I want to just thank you for your expertise.
    Dr. Gutierrez, I am really intrigued, and so what I'd ask 
you to do, one of the things I've thought about is sometimes 
access with privacy, you understand that as a physician 
probably more, you know, so than anybody else in terms of 
patients and the right to privacy.
    So maybe what we can do, and I'm looking for some of my 
Democratic colleagues, maybe on a telemedicine, if we're 
talking about short-term, 12 hours or less, working on that. So 
if you'll get with this committee, I'm willing to work with 
some of my Democratic colleagues to hopefully make sure that 
pediatricians are addressing some of the health concerns.
    And with that, I'll yield back the balance of my time to 
the ranking member, Mr. Roy.
    Dr. Gutierrez. Can I just answer real quick? Telemedicine 
is good, but this is not going to cut it for what we're asking, 
because telemedicine, you're trying to take a picture of an 
individual, they can have a horrible rash----
    Mr. Meadows. Yes, listen, I live in the mountains so we're 
hours from healthcare a lot of times. So I get that. What I'm 
saying is, is some of the obstacles we have, I'm willing to 
work with you.
    Dr. Gutierrez. Yes.
    Mr. Meadows. Let's have some of that and we'll see what we 
can do.
    And I'll yield back.
    Dr. Gutierrez. Thank you.
    Mr. Roy. Well, I thank the gentleman from North Carolina.
    Thanks, Doctor, for that.
    Mr. Vitiello, let me just ask a couple of questions. Could 
you paint a picture again about a little bit of the scale of 
the numbers we're talking about, right? I mean, compare what 
facilities are designed for by CBP along the border wherever 
you want to in terms of the Texas, you know, by sector, but 
what are the CBP facilities designed to do, and how many people 
are they supposed to house, and what are we dealing with now, 
that order of magnitude?
    Mr. Vitiello. So they spoke today about the facility, the 
McAllen Border Patrol Station. It's completely overwhelmed. 
It's one of the newest----
    Mr. Roy. Right.
    Mr. Vitiello [continuing]. facilities that's online. It was 
designed for taking people into custody for a short time. Most 
of the traffic back in the day was adult males from Mexico, so 
they were with us for a very short time.
    It's designed for the book-in procedure, to take the 
biometrics, to take the biographics, and then move people down 
the line. But because of the crisis in 2014, we were forced to 
adapt that facility. That's why Ursula was stood up. Ursula was 
stood up for the flow in 2014, which is a fraction of what it 
is today.
    And so even in the best of times, when you're 400 percent 
over capacity, you're not going to be able to give conditions 
and have people safe in that scenario in any way. And so these 
facilities were designed for that book-in procedure. They're 
not designed to hold large numbers of families and children.
    Now, the Border Patrol and CBP have adapted the best way 
they can. But with this kind of flow, they're just overwhelmed.
    Mr. Roy. So really quickly, the picture that we're putting 
up right now, which was from, again, from 2014, which I would 
again remind my colleagues it was used as a picture to talk 
about kids in cages for marketing this hearing with respect to 
current conditions, but okay.
    This is what was happening in 2014. That was in response to 
the unaccompanied alien children crisis of that time, right, 
the children riding on the top of train cars, and in the 
response by Secretary Johnson and the Obama Administration on 
what do we do, right. We don't have any facilities. Now we've 
got all these kids. Now what do we do with them? They're 
unaccompanied. What do we do with them?
    So you talk a little bit about the facilities and the 
problem of dealing with children who are not with parents and 
ensuring that they're safe, that we don't--we've got to be 
careful who we give them to. Can you talk a little bit about 
those two things?
    Mr. Vitiello. That's correct. By law, under the way the law 
treats unaccompanied alien children, they must be turned over 
to HHS for placement with family in the United States. That 
facility is a converted warehouse that we adapted for the 
crisis that was occurring in 2014, again, which was much 
smaller than what we face today.
    The other thing that Jeh Johnson did under the Obama 
Administration that ICE helped him with was establish these 
family residential centers. And I get it, people don't want to 
do immigration detention. But when they did establish a family 
residential center, first in Artesia and then now in Karnes and 
Dilley, the traffic dried up. People stopped coming to the 
border with their children.
    Mr. Roy. Are you aware--I've been told, and I want to see 
if this would meet your understanding or knowledge. I've been 
told that, for the most part, if you look at the roughly 
700,000 individuals who have been apprehended--now, that's not 
talking about those who are not apprehended--those who have 
been apprehended coming between the ports of entry or being 
dealt with at the ports of entry, of that 700,000, roughly half 
are family units, and that for the most part, those family 
units are being caught and released, and relatively quickly 
today because of the numbers that we're dealing with.
    And that it's roughly 60,000 or so that are unaccompanied 
alien children, and then the rest are single adults. And one of 
the problems, of course, is keeping single adults from the 
children, especially those single adults who are falsely 
claiming to be the parents of those children.
    Can you talk me through a little bit of that, and then 
I'll--I'm out of time.
    Mr. Vitiello. Yes. So the Department has been successful in 
addressing the single adult population. They're taken into 
custody at CBP. They're processed as quickly as possible, 
obviously prioritize the children and families first, but 
eventually we get to the processing of single adults.
    They're handed over to ICE for detention. And while they're 
in detention, they're on the detained docket, which means they 
get to an immigration hearing quickly. When they get relief, we 
welcome them to the United States. When they don't get relief, 
they're quickly repatriated with cooperation of the countries 
that they're from.
    Mr. Roy. Thank you.
    Mr. Raskin. Thank you very much, Mr. Roy.
    Ms. Kelly, you're recognized for five minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. Vitiello, when you listen to Dr. Gutierrez, would that 
be helpful to you if pediatricians in the community could come 
in? If there was some way we could work that out, do you think 
that's a good idea?
    Mr. Vitiello. Well, in this role, I can't speak for the 
Department or the--or CBP, but in 2014, it was helpful. In the 
supplemental request that just got authorized by this Congress 
and signed by the President, there is money for CBP to put on 
more contract medical staff.
    In the beginning of this crisis, we started with using 
support from the Coast Guard and our own ability--CBP's own 
ability to contract. So it sounds like a commonsense idea. I'm 
not opposed to the idea, but there are restrictions about 
people's privacy when they're in the custody of the government 
with--you know, through the privacy scenario that they're in, 
their medical care, that has to be worked out. I think it's a 
commonsense idea that's worth pursuing.
    Ms. Kelly. And I'm sure with the witness we just had, she 
would have appreciated that greatly.
    Also, the other thing is, since you have an increase of 
children and, you know, what you were just talking about, are 
the officers getting any more training, or how are they doing? 
I mean, they're parents and uncles and aunts, they have kids 
and that kind of thing. What--it sounds like they're overworked 
and----
    Mr. Vitiello. They're absolutely overwhelmed. The Border 
Patrol agents that I know and care about, and their families, 
are compassionate, resilient people, but they're in a situation 
that they didn't choose to be in. They're overwhelmed by this 
particular mission.
    According to the recent testimony of Chief Provost, 40 
percent of our work force are assigned to the care and custody 
of families and children and people who are in custody. That 
means that 40 percent less deployed agents along the border.
    They didn't sign up to do this mission, and you've heard 
today that they're particularly trying as hard as they can. I 
think they're doing the best they can under the situation that 
they're in. But they have to be demoralized. The ones that have 
been in a while, what I recognize is there's no help coming. If 
we don't change the way the law works, this flow will continue, 
and it will continue until something changes.
    Ms. Kelly. So I'm assuming that you will say the negative 
things that we're hearing, that's a small percentage of the 
officers?
    Mr. Vitiello. The negative things as it relates to their 
behavior and misconduct, yes, that's not my experience of the 
culture of the Border Patrol. These are hardworking men and 
women who took the same oath that you did to protect this 
country, and that's what they're most interested in. They're 
put upon in a situation that's extraordinary in the history of 
the border, and this isn't something that they choose to be a 
part of.
    Ms. Kelly. Yes, Dr. Gutierrez.
    Dr. Gutierrez. I just want to add that the American Academy 
of Pediatrics has offered at least two to three times the 
ability to provide training to the Border Patrol individuals, 
the workers, on pediatrics, on basic pediatric illnesses, and 
to this day it has not happened. They have not accepted any of 
that help.
    Ms. Kelly. I'm looking at you, Mr. Breen. It seems like 
you've wanted to say a few more things. I want to give you that 
opportunity.
    Mr. Breen. Thank you. I would just say that I saw this 
myself in Iraq as a solider. I've done refugee work in places 
like Syria, Lebanon, Jordan.
    When you ask a law enforcement or military organization to 
do something for which it was not trained or equipped and which 
cuts against the personal and collective integrity of the 
people in that organization, you get disastrous impacts on the 
culture and you start to see the things we are seeing with CBP. 
That is an entirely predictable result.
    When you ask an organization that is set up for 12-hour 
detention to handle long-term detention of children, to 
forcibly separate children from their parents, that dehumanizes 
the agents, and they, in turn, start to dehumanize other 
people.
    I am proud to have served as a U.S. Army officer. I can 
tell you that happened to parts of the U.S. Army when they were 
asked to do things they were not trained to do. This is an 
entirely predictable result of terrible policy decisions, and 
the Government of the United States should not be placing these 
men and women in that position. It's outrageous.
    Thank you.
    Ms. Kelly. Thank you. I agree.
    And, Ms. Long, it is my understanding that you've been 
interactive with detainees that needed medication, including a 
set of 11-year-old twins with epilepsy. Can you talk about 
that?
    Ms. Long. Correct. One of the children or the sets of 
children I spoke with in Clint was a pair of 11-year-old twins 
who were stoic and extremely upset that they had been separated 
from a 19-year-old sister who had all of their parents' 
information. And they told me: I'm worried that I'm never going 
to connect with my parents again.
    We got on Facebook. We sent messages to various family 
members. Someone finally responded, and we connected them with 
their father. When they started talking with their father, 
tears just started running down their faces, because they had 
been held for 13 days alone in a cell.
    They had epilepsy. One of them was having a severe allergic 
reaction all over his body, something that can be the result of 
reaction to the wrong epilepsy medication.
    They are still detained now in ORR custody. They've gotten 
out of CBP custody. But I'm thinking of them every single day, 
because they're still in the system.
    Ms. Kelly. Thank you.
    I know I'm out of time, but this is such a dark stain on 
our history every day as we are putting people through this. 
And I understand what you're saying, people feel overworked. 
But this is a human crisis and people are losing their lives. 
That is absolutely ridiculous. And when you think about the 
Statute of Liberty and what that says, we are certainly not 
following that.
    Mr. Raskin. Thank you, Ms. Kelly.
    Mr. Cloud is recognized for five minutes.
    Mr. Cloud. Thank you all for being here today.
    Mr. Vitiello, you mentioned that the situation at the 
border has changed. The resources we have at the border were 
basically set up when we were having single adult males come 
from Mexico. Could you briefly explain what's changed? Why are 
we seeing a difference now?
    Mr. Vitiello. Well, I think conditions and the economic 
picture in Mexico changed. In the 2010 or so timeframe, we 
started seeing more people from the Northern Triangle coming up 
to our border.
    The demographics in those three countries is much younger 
than Mexico. They are unstable. There is lack of opportunity. 
And the policy and the way the law is operationalized sort of 
incentivizes people to come here.
    If they come here, they're--we talked about these 
conditions. But when they come here, essentially they are being 
released by U.S. authorities, and they're sent to all the 
cities and towns in the United States. And so that's a much 
better life for them, for most of them, not all of them. We 
talk about some of the folks that are on the margin that get 
preyed upon the same gangs they fled home for.
    But that's the policy that we have here. It's a catch-and-
release policy. And every time in my career when we've 
suspended the activity of catch and release--we did it in 2007 
for Secretary Chertoff, we did it in 2014 for Secretary 
Johnson, and we're not doing it now, so we're getting more of 
the same misery and chaos that we're seeing on our border.
    Mr. Cloud. So a lot of this misery is being caused by the 
magnet that we've created. Is that fair to say?
    Mr. Vitiello. There are push-and-pull factors, and the way 
the law is operationalized, people are getting released and 
they're getting set up for a hearing. And the data that the 
Justice Department has now on the rocket docket for families 
suggests that many of them will not avail themselves of an 
asylum opportunity or an immigration hearing.
    Mr. Cloud. Right. Well, Mr. Breen mentioned that this, what 
we're seeing today, is entirely predictable results, and I have 
to agree. There are many of us months, even a year ago calling 
for action on this humanitarian crisis while for months the 
opposition called it a manufactured crisis.
    I'm concerned about that, because I'm from south Texas. 
We've known that this is an issue for years. In 2006, a 
tractor-trailer with 19 migrants was discovered 10 minutes from 
my home in Victoria. When they opened it up, all 19 migrants, 
including a five-year-old boy, were dead in the back of a 
pickup truck in the sweltering heat of Texas.
    And so we know that this is--I live at what is the pinnacle 
point of what is called the fatal funnel, where cartels use 
those major two highways to traffic humans, to traffic drugs, 
to do their illicit activity to get it into the states and then 
throughout the states.
    And so what's really disheartening about this situation is 
we've sat here for months and months and months and months and 
watched this metastasize into the tragedy it is today while 
doing nothing about it.
    I appreciate the tears. I appreciate the concern for 
children. But I think it's a far greater compassion to be able 
to have the wisdom and foresight to look into the situation and 
prevent it from happening in the first place.
    I was sworn in a year ago today. And the frustrating thing 
about this place is how much political theater is--so little 
action--so much time--so little time is spent on actually 
finding solutions to solve problems and so much time is spent 
on political theater meant to posture for the next election, 
because we'd rather run on an issue than solve a problem.
    And so this is something that this House, this Congress 
should have been acting on for months and months and months now 
to deal with this situation, but instead we're putting 
ourselves in a position to aid and abet the cartels who are 
profiting off this situation and providing little results.
    So anyway, that leads me to this point. I was down there 
about a month ago, and we went there with a couple other 
members from the oversight committee and we did a couple 
things. We visited an unaccompanied minor facility that housed 
a couple hundred young ladies. About 40 percent of them had 
been sexually abused along the journey, according to the 
staffers who worked there.
    One story, which is kind of humorous but points to the 
situation, is there was a family that showed up that had a 
child with them, and the child needed to go to the restroom. 
And so they asked the child just upon arriving at this 
facility, ``Would you like me to show you where the restroom 
is?'' And he's like, ``Oh, I already know,'' because he had 
been there several times.
    There is an issue with recycling children going on in this 
situation. And we have Customs and Border Patrol--who, by the 
way, about 30 percent of them are veterans--doing the best they 
can to deal with this situation.
    Mr. Vitiello, could you speak to the issue of recycled 
children and our need to protect children as they come across 
and what we need to do to do that?
    Mr. Vitiello. So this is part of the difficulty with the 
incentive. If you bring a child to the border and you make 
officials believe that it's your child, then they're going to 
take you in custody, they're going to process you, and they're 
going to release you with that child. That's the situation that 
we're in.
    And when ICE and CBP dedicated resources to try to figure 
out what was going on, they recognized that there is a 
significant percentage of families who are pretending to be 
related when they are, in fact, not. ICE made a case, at least 
one case while I was there, where they uncovered corrupt 
officials in Guatemala who were issuing residency documents and 
birth certificates, if you will, from that country that 
fabricated the family relationship that these families had.
    So this is a big problem. The word is out. People know that 
if they send or bring their child that their end result is to 
be released in the U.S.
    Mr. Cloud. I believe the number is 4,800 family units have 
falsely presented this year.
    Mr. Vitiello. That sound right.
    Mr. Cloud. Thank you. I yield back.
    Mr. Raskin. Thank you very much.
    Ms. Ocasio-Cortez, you are recognized.
    Ms. Ocasio-Cortez. Thank you, Mr. Chair.
    And before I start, I think there's an important cultural 
context that may be missed in this conversation about 
unaccompanied children.
    One is that in Latino families and in Latino communities--
not just Latino communities, mind you, I understand this 
applies in many other cultural contexts as well--is that what 
gets defined as family is different than what usually or 
traditionally gets defined as family in the United States.
    When I was a child, my parents would often send me to 
Puerto Rico during the summers and I would live with my aunts 
and my uncles and my cousins. My cousins were raised with me as 
my siblings. I would call them brother, sister. My aunts and my 
uncles were raised as secondary parents. In fact, the actual 
word comadre or compadre means co-mother, co-parent.
    And this is the cultural context with which children are 
coming to the border with their loved ones. They are being 
taken, they arrive, and then they are being called 
unaccompanied children when, in fact, they are accompanied. 
They are accompanied by their grandmothers. They are 
accompanied by older siblings. They are accompanied by cousins.
    And just because that person that is coming with them, 
their guardian, is not their biological mother or father, then 
they are being accused of human trafficking and they are being 
accused and called an unaccompanied child. But they are 
experiencing the same trauma that any child would be 
experiencing if they were ripped from their own mother or 
father.
    Ms. Long, do you find that that's in agreement with your 
experience?
    Ms. Long. I am in complete agreement with how you have 
summarized that situation.
    And I also want to add that CBP currently maintains no 
records to trace those families. And so when someone is 
separated from, say, their tia who's raised them maybe for 
their whole lives, there is no way for the agency to then trace 
those family relationships and put those families back 
together.
    Ms. Ocasio-Cortez. And I myself have been in a similar 
situation in that I have nieces and nephews. And there is an 
already unspoken understanding that if anything were to 
happen--so I call them my nieces and nephews, and they're 
technically second or third cousins or whatever, however other 
folks would call that. That if something, God forbid, were ever 
to happen to my cousins, I would take those children as my 
children. My nieces and nephews would be taken as my son or 
daughter.
    So quickly moving forward, under the Trump administration 
at least six children have died in U.S. custody. I have their 
names up here: Darlyn Cristabel Cordova-Valle, age 10; Jakelin 
Caal Maquin, age seven; Felipe Gomez Alonzo, age eight; Juan de 
Leon Gutierrez, age 16; Wilmer Josue Ramirez Vasquez, age two; 
Carlos Gregorio Hernandez Vasquez, age 16.
    Those are just the ones that we know of. We didn't even 
hear of Darlyn's death until eight months after she died. And 
this is not including the children like Mariee, who we heard 
about earlier, who fell gravely ill due to the neglect and lack 
of sanitation inside DHS custody, but they died only after 
being released from detention facilities. So her death doesn't, 
quote/unquote, count.
    In the 10 years prior to that, there were no similar 
deaths, zero, of migrant children in U.S. custody. This is a 
new phenomenon under the Trump administration.
    Ms. Frye, how many migrant children are similarly falling 
ill and dying but are not being counted as a death in CBP 
custody?
    Ms. Frye. Congresswoman, I don't know the number. I have no 
idea of the number. You'd have to ask the government.
    But I can verify for you the reasons why this is happening 
now so much, it's so much a greater incidence, and that goes 
back to the question of release. When you don't promptly 
release children, they go to ORR and they're held there. 
They're not released. The mechanism isn't working. The 
requirements under the TVPRA and under Flores for prompt, 
expeditious release are ignored.
    Then you get a backup in these unsanitary places where you 
pack kids in a kind of a congregant care. The WHO says to 
prevent the spread of disease, wash your hands. There's no soap 
and water.
    So we make a situation there by the way we detain kids, 
because they can't go upstream because they aren't being 
released, that is conducive to illness. And I think that's part 
of the reason. In the family facilities, we just aren't 
providing care with doctors.
    Ms. Ocasio-Cortez. Ms. Long, very quickly, is there any 
policy that you know of that requires ICE to count pregnant 
women and women who are pregnant, record them?
    Ms. Long. Not that I know of, no.
    Ms. Ocasio-Cortez. So we don't even know how many of these 
women--there's no requirement to even acknowledge, count, or 
record a woman who is pregnant in custody. And we know of at 
least 28 miscarriages, at least.
    Ms. Frye. Congresswoman, that is also true of children. And 
we saw at the RGD girls who were pregnant who weren't being 
given any medical care, and nobody seemed to even care that 
they were pregnant. And that's really serious.
    Mr. Raskin. Thank you. The gentlelady's time has expired.
    Mr. Vitiello. Could I just add that when females are taken 
into ICE custody and they're contemplating being detained, that 
they're all given a pregnancy exam. And so soon after they're--
within the first 24 hours they're in ICE custody, medical 
practitioners are aware of their pregnancy.
    Mr. Raskin. Thank you. The gentlelady's time has expired.
    Mrs. Miller, you are recognized.
    Mrs. Miller. Thank you, Mr. Chairman.
    You know, just a few months ago the leadership was accusing 
President Trump of exaggerating that there was a crisis on the 
border. In fact, minority--majority at that time--Minority 
Leader Schumer stated that this President just used the 
backdrop of the Oval Office to manufacture a crisis, stoke 
fear, and divert attention from the turmoil of the 
administration. And it's shocking to me that it has taken this 
long for my colleagues to finally address that there is a 
crisis.
    In 2019, we've had more than 593,000 illegal aliens 
apprehended at our southern border. From October 2018 to May 
2019, we've had 23,944 unaccompanied alien children attempt to 
cross the border. I'm glad that we finally realize the 
situation that we're in and that we can now move forward and 
look for solutions. It's not time for political games. It's 
time to act swiftly to get this crisis in hand.
    Mr. Vitiello, how long is a typical trip from the Northern 
Triangle to the southern border of the United States? How long 
does it take?
    Mr. Vitiello. It could be weeks that people travel through 
Mexico.
    Mrs. Miller. Approximately how many children will arrive at 
a facility on a given day?
    Mr. Vitiello. The data that I saw most recently in the 
press was that two-thirds of the groups coming to the border 
every day. So two-thirds of 2,000.
    Mrs. Miller. Are many of the children who arrive in need of 
medical care? And, if so, what are the issues that you're 
seeing that they have?
    Mr. Vitiello. It's a difficult journey. You know, it's 
difficult for them to sleep on the journey. They're not fed as 
well. They're in the hands of smugglers, people that don't care 
about them as individuals, that care about them as a commodity. 
And so when they get to the border, they're often very sick.
    Early days, when I was still in CBP, scabies, lice, 
respiratory infections, fevers, et cetera, all the things we've 
heard about here today, that's part and parcel of what comes to 
the border every day.
    Mrs. Miller. So infectious problems?
    Mr. Vitiello. Correct.
    Mrs. Miller. OK. How many children are treated for the 
ailments that they have? And are the results from the trip or 
are they the results because they are here?
    Mr. Vitiello. Well, CBP does its best. When I was still in 
government, we spent thousands and thousands of hours, millions 
and millions of dollars taking people from CBP custody into the 
hospital and safeguard them and bring them back. So there's 
many, many hours and many, many dollars spent on this 
particular problem.
    Mrs. Miller. Is there soap and water?
    Mr. Vitiello. There is.
    Mrs. Miller. Several news organizations have alleged that 
pregnant migrant women are not properly cared for once they 
cross the border. Can you explain how those pregnant migrants 
are processed and handled? I know you mentioned them.
    Mr. Vitiello. So you can imagine a facility that's 400 
percent over capacity. So they could be in custody with CBP for 
some time before they're interviewed by an agent or an officer. 
And so the agent and officer won't know unless they ask or 
maybe that individual won't tell them.
    When they're in detention with ICE, in ICE custody, the 
single adults that do make it into ICE detention, they're 
quickly assessed medically within the first days of their stay 
in detention, and part of that assessment is a pregnancy test.
    Mrs. Miller. So within a week?
    Mr. Vitiello. Yes. Sooner in most cases.
    Mrs. Miller. Can you tell the difference between the 
testing between ICE and CBP?
    Mr. Vitiello. Well, CBP doesn't do pregnancy tests. The 
mission at CBP at the border is to move that individual 
downstream as quickly as possible. So if it's a family, they 
get released. If it's a child, then they get referred to HHS as 
quickly as possible. If they're a single adult, they get 
referred to ICE for detention.
    Mrs. Miller. So you would assess their ability to process 
as appropriate for the migrants that are pregnant?
    Mr. Vitiello. No, this is an extraordinary circumstance. 
There's 500,000 people so far that have come to our border this 
year.
    Mrs. Miller. Okay. In CBP holding facilities and ICE 
detention facilities, what types of onsite services are 
provided to the pregnant migrants and their children?
    Mr. Vitiello. So the ICE detention has the full range of 
medical care, law libraries, safe and sanitary conditions 
that's designed for a long-term stay. So everything you would 
find in a modern facility.
    At CBP, they've adapted as best as they can, but these 
locations and these facilities were not designed to hold large 
numbers of young people or families and children alone.
    Mrs. Miller. What resources do you believe would help CBP 
to do its job effectively, given the number of migrants that 
are here?
    Mr. Vitiello. Well, they'll continue to make these 
modifications. They're going to add floor space to these 
locations where they're seeing the large influxes of children 
and families. But I don't believe that that's going to get them 
out of the situation that's being discussed here today. Without 
a change in the law, these people are going to continue to come 
to our border in the conditions that they come in.
    Mrs. Miller. Thank you.
    Mr. Raskin. The gentlelady yields back. Thank you very 
much.
    Before I yield to Ms. Pressley, I want to enter six 
statements into the record: a statement from the American 
Medical Association noting that the CBP facilities we've been 
discussing are not appropriate places for children or pregnant 
women; the statement expressing concern about detention center 
conditions from Amy Kahn, a clinical psychologist and trauma 
expert who has provided psychotherapy to the recently arrived 
immigrants; a statement from Carol Martin, executive director 
of Trauma Recovery, EMDR Humanitarian Assistance Programs, a 
nonprofit working on treatment of psychology trauma; a 
statement from Church World Service, a religious-based 
humanitarian group with refugee resettlement offices in 17 
states, opposing any undermining of current legal protections 
for immigrant children; a statement from the National 
Association of Pediatric Nurse Practitioners, whose members 
work to provide care for refugee children; and finally, a 
statement from Myra Jones-Taylor, the chief policy officer for 
Zero to Three, a nonprofit advocating on behalf of babies and 
toddlers.
    Without any objection, I will admit them into the record.
    Mr. Raskin. And I recognize Ms. Pressley for five minutes.
    Ms. Pressley. Thank you, Mr. Chairman.
    A couple of my questions were asked and answered, so I'm 
going to skip around here a little bit.
    Mr. Vitiello, you indicated that CBP agents are simply 
following the letter of the law, so to speak. I'm just curious, 
because I happen to think the law's a cruel and inhumane one.
    And, Mr. Breen, I hope you'll elaborate further on the 
general culture, dehumanizing culture for all parties involved.
    But I'm just curious, in that oath that CBP agents take, 
does it offer anything about humanity? And we know that they're 
not getting the training on the medical side in order to get 
the indicators of children that are in distress. Is there any 
sort of antibias training or cultural competency or trauma-
informed training, which I think would be beneficial whether 
you were talking about 72 hours or the 60-plus days many are 
currently being detained.
    Mr. Vitiello. They do receive cultural training. That's 
part of the indoctrination. When they come back from the Border 
Patrol Academy, there is curriculum specifically designed for 
that.
    In the 2014 crisis, we developed a curriculum for agents to 
take as it relates to the crisis that was underway then, how to 
speak to children in a more accommodating way, how to get to 
their needs quicker. So that training is part of what agents 
experience.
    When you talk about the family members and what the law 
requires, we talk about adult family that weren't moms and 
dads. Congress could help us here, right? They could change the 
law to relieve the liability from CBP so that if someone is 
traveling with an adult relative, they can be held together and 
kept together, because they're not a mom or a dad.
    Ms. Pressley. I appreciate that. Thank you. I'm going to 
reclaim my time. I just want to get a couple more questions in. 
But thank you so much.
    One other thing just for the purposes of the record. Is 
there anything in that oath that speaks to the humanity and how 
CBP agents should be treating those that they're charged with 
their care and custody?
    Mr. Vitiello. Congresswoman, the oath is the same one that 
you take. It's an oath to the Constitution and the people of 
the United States.
    Ms. Pressley. Okay. All right. Very good.
    CBP is the country's largest law enforcement agency but 
with the least amount of transparency and accountability. The 
same agencies that claim that they did not have the resources 
to provide basic necessities, toothpaste and blankets for 
children, continue to find the resources to detain thousands of 
additional migrants.
    And, in fact, it was recently reported that three new ICE 
facilities have opened throughout Louisiana and Mississippi in 
the last month. And since 2000, the number of Border Patrol 
agents has increased from about 9,000 to 19,500 agents. Since 
2006, CBP's budget has more than doubled, going from $7.1 
billion to $6.7 billion.
    And, again, we continue to see these abuses persist, which 
would lead me to surmise that this is not about capacity and 
everything to do with culture and a callousness and a 
corruptness and a chaos.
    Mr. Breen, does that sound right to you?
    Mr. Breen. It does. Money alone is not going to solve this 
problem, there's no doubt about it. Oversight is necessary.
    I'd make a couple of quick points, if I may.
    Congressmen earlier mentioned that they felt that U.S. 
policy was aiding and abetting criminal cartels. I have to 
agree, and I would point to two policies.
    The first is metering at points of entry. So yesterday in 
Juarez I spoke with a mother of an eight-month-old child. She 
had tried to present herself at a port of entry, follow the 
law, follow the rules and say, I seek asylum in the United 
States. She was told to take a number and wait her turn. 
They're taking about 10 or 15 people a day on that bridge. She 
is holding number 17,000-plus.
    She is in Juarez, because the U.S. Government has seen fit 
under the obscenely named migrant protection protocols that she 
should sit in Juarez, where these cartels have absolute access 
to her and her family.
    Now, do you think she is better off? Do you think we are 
aiding and abetting the cartels by having her sit in Juarez 
where they can actively prey on her or by placing her in a case 
management program in the United States where ICE itself has 
run a family case management program pilot in which there was 
99 percent--99 percent--attendance for ICE check-ins and 
appointments and 100 percent attendance at court hearings?
    Ms. Pressley. And pardon me, Mr. Breen. And also that 
program was much cheaper----
    Mr. Breen. Absolutely.
    Ms. Pressley [continuing]. than locking up children and 
families. It was costing $36 per family compared to $319 per 
person----
    Mr. Breen. Absolutely.
    Ms. Pressley [continuing]. at a family detention center.
    Mr. Breen. Absolutely.
    I would make one other point on the culture if I could, and 
I apologize for taking so much time.
    Ms. Pressley. Please, I hope you'll elaborate.
    Mr. Breen. Mr. Vitiello has used the common term ``catch 
and release'' multiple times in this hearing. I'll make a 
couple observations.
    These are human beings, not trout. Presenting yourself at a 
port of entry to seek asylum is exercising your right under 
international law. You have not been caught; you have 
volunteered yourself. And being released implies that you will 
escape or attempt to escape when, again, on case management, 
100 percent of these people showed up at their hearings.
    Everyone I have spoken to is trying to figure out how to 
follow the ever-changing bizarre rules this administration is 
creating on the fly. They're all trying to do the right thing. 
So I think this language matters. Thank you.
    Ms. Pressley. Absolutely. Thank you, Mr. Breen.
    Ms. Ocasio-Cortez.
    [Presiding.] Thank you. The gentlelady's time has expired.
    The chair now recognizes the gentleman from Wisconsin, Mr. 
Grothman.
    Mr. Grothman. Thank you.
    Mr. Vitiello, I'd like to ask you a few questions.
    I was down on the border twice myself this year, once the 
Tucson sector and once the Laredo sector, and was horrified at 
the situation. I know the Border Patrol down there was so 
frustrated hearing politicians call this a manufactured crisis, 
because they lived the crisis every day and they knew it wasn't 
manufactured.
    I know this hearing focuses on children dying, but I heard 
in the Tucson sector alone about 250 people are dehydrated to 
death coming into this country. I don't know how many in the 
other sectors. And I also heard in the Laredo sector these 
drownings in the Rio Grande are not unusual.
    And it frustrates me that so many people, however, do try 
to come in this country when we don't necessarily want them.
    Now, I was just looking at map a second ago in Guatemala. 
If you wanted to leave in Guatemala, if you felt you were in 
danger there, I believe there are eight countries you could 
walk to quicker than the United States. Nevertheless, people 
apparently continue to keep trying to come to the United 
States.
    What can we do to prevent that? Because to me, as long as 
we continue to have people come here from all around the 
world--and it's growing more all the time--we're going to 
continue to have people dehydrate to death in the Arizona 
desert, we're going to continue to have people drown in the Rio 
Grande, and we're going to have the wonderful but overworked 
Border Patrol trying to deal with this flood of people.
    What can we do to stop this flood of people who I don't 
think should be here?
    Mr. Vitiello. Throughout my career and at several important 
timelines, in 2007 and 2014, we were facing similar surges, 
although the magnitude of the one we're in now is much bigger 
than anything I've ever seen. It's extraordinary.
    But when we put the policies in place where people can be 
held in detention until the pendency of their immigration 
hearing, then they are either given relief under the INA or 
they're repatriated with the cooperation of the country that 
they came from.
    Mr. Grothman. Under current law, as I understand it, if 
somebody here and says--asks for asylum--and everybody I know 
feels that the vast majority of these claims are unnecessary. 
You don't have to go through tons of other countries to get to 
the United States if you're so concerned there's danger at 
home.
    What they told us, they're releasing them inland and they 
give them a hearing three to five years out. In other words, in 
essence, you just show up, ask for asylum, you get in the 
United States.
    Is that system contributing to people continuing to come 
here?
    Mr. Vitiello. Right. It's a completely rational act for 
people to come here, knowing that they're going to be released 
and they're going to be out in this economy.
    In September, the Department of Justice, at the urging of 
the Department of Homeland Security, asked DHS to put a rocket 
docket together in 10 locations across the country for 
immigration proceedings for families to be heard quicker.
    When you're in detention, you're on a rocket docket. You're 
going to be--you're going to see the judge quickly. When you're 
on the nondetained docket, in some of these big cities it will 
be years before you get to a merits hearing.
    So DOJ in September put together that rocket docket in 
those 10 locations. Before I left government, they had heard 
3,500 of those cases. Most of those cases, most of those 3,500 
cases, those individuals were ordered in absentia, because they 
never appeared for their asylum claim or their immigration 
proceeding.
    I subsequently notified those 3,500 people and asked them 
to come in on an order of supervision so that they could then 
get back into the court cycle. Thousands of those people, 
again, did not show up.
    And so that has happened. Thousands more have had their 
hearing since then. And so there's a large population who have 
come to the border recently who claimed asylum, were released 
from CBP or ICE custody, and then failed to pursue their claim 
in court.
    Mr. Grothman. What percent do you think wind up not in 
court if you just had to take a stab at it?
    Mr. Vitiello. In April, that percentage was 90 percent no 
show rate, ninety percent----
    Mr. Grothman. Ninety percent no show?
    Mr. Vitiello. Ninety percent ordered in absentia by the 
judge.
    Mr. Grothman. And here we're trying to get more judges and 
we beg and beg and we can't get more judges here to make sure 
we find out right away what's going on. No wonder people are 
trying to come here and overflooding our poor Border Patrol.
    Any other suggestions you have to prevent people--and maybe 
you want to comment, too, because this hearing is supposed to 
be about the kids. Two hundred and fifty people dying a year, 
about 250, in the Arizona desert in the Tucson sector alone, 
because people won't build a wall because they want the current 
system to continue.
    Mr. Breen. Congressman, I'm sorry. If I may, but the 
appearance rate among families represented by counsel is 99.9 
percent, 99.9 percent of families represented by counsel 
appear. The newest TRAC immigration report says 81 percent of 
recently released families apprehended at the border attend 
their court hearings.
    Mr. Grothman. Of those people released under the current 
system that's three to five years out, Mr. Vitiello, what 
percentage of people after hanging around for three to five 
years wind up showing at their hearing, do you believe?
    Mr. Vitiello. Well, the rocket docket speaks for itself. 
From September to April, 3,500 cases were heard, and 90 percent 
of them were ordered in absentia, which means they did not 
appear.
    Mr. Grothman. Obviously, there's a big disagreement there. 
Thank you.
    Ms. Ocasio-Cortez. Mr. Breen, sorry, you seemed to have 
wanted to respond to that.
    Mr. Breen. Sure. I think, yes, if you rocket docket people, 
the less due process and information you provide to people and 
the less access to counsel people, that they're less likely to 
show up in court. Yes, absolutely, of course they are.
    So the answer is not let's deprive people of due process. 
Again, ICE's own case management process, they ran this pilot 
and then canceled it inexplicably in 2017, and it worked. It 
saved taxpayer dollars and the appearance rate, again, was 
close to 100 percent.
    Instead, we're detaining people who have been accused of no 
crime whatsoever and then we're listening to a narrative that 
says we don't have the capacity and the resources to detain 
them.
    Ms. Ocasio-Cortez. Thank you.
    Ms. Long. May I also say quickly, Representative?
    Ms. Ocasio-Cortez. Briefly, yes.
    Ms. Long. Very briefly. It turns out that the immigration 
court system is also under government control. And this body 
could be taking actions to change that three to five-year 
delay, investing in the court system, investing in due process, 
investing in representation, which makes that court system much 
more efficient and more fair.
    Ms. Ocasio-Cortez. I see. Thank you, Ms. Long.
    The chair now recognizes the gentlelady from Michigan, Ms. 
Tlaib.
    Ms. Tlaib. Thank you so much, Chairwoman.
    And I want to thank all of you so much for being here. As a 
former immigration attorney, I can tell you the system has 
completely deteriorated, broken down. We should have been 
changing it 20 years ago.
    If you have an issue with asylum, and some of us even 
currently do, and it does take too long, because there are 
people that actually want a decision right away. And having 
their lives literally on hold because they haven't had a 
decision is really impractical for their lives. And they get so 
rooted here waiting three to five years.
    You think they want to. They don't. I have clients, and 
I've worked in the pro bono area for years, and I'm telling 
you, my heart breaks, y'all. Honestly, the horrific suffering 
of these vulnerable immigrant children and families, seeing 
what I saw in El Paso.
    But what is even more upsetting is realizing that the Trump 
administration's cruelty toward migrants--and I'm going to just 
call them families, families and children--isn't just a bug in 
the system. It's the entire point. It's an ideology.
    Last week President Trump tweeted: If illegal immigrants--
it's his words--are unhappy with conditions in the quickly 
built or refitted detention centers, just tell them not to 
come. All problems solved, exclamation point.
    He seems to be admitting that detention conditions are 
terrible and that was intentional to deter migrants from 
coming.
    Mr. Breen, would you agree with that assessment?
    Mr. Breen. Absolutely not. If you and your children are 
trapped in a burning building, it does not matter how miserable 
I make it on the street. You're going to do whatever you can do 
to get out of that burning building with your kids. Deterrence 
is a completely ineffective policy. All it does is ramp up 
human suffering.
    Ms. Tlaib. But that's exactly what he's trying to do. He 
thinks this is going to deter folks from coming. That's the 
whole point of the policy.
    And I can tell you, I talked to three incredibly I think 
sincere CBP agents. I mean, these Border Patrol agents took me 
aside, not in front of the others, because the model is honor 
first. So there's this culture you don't tell on each other. 
But three of them took me aside. One specifically said: Stop 
throwing money at this. The issue is separation. That I wasn't 
even trained to separate a two-year-old from their mother, I 
wasn't trained to be a medical care worker. I wasn't trained to 
be a social worker, is what one agent told me.
    And the other agent said: Do you understand, like 
everybody's blaming us, but this is what was handed to us, is 
the separation policy.
    Ms. Frye, do you believe the cruelty is intentional?
    Ms. Frye. Absolutely.
    Ms. Tlaib. Ms. Long, do you agree that all the problems 
will be solved if we tell asylum seekers not to come?
    Ms. Long. You know, as a poet has said, no one puts their 
child in a boat if the water is not--you know, if the water's 
not safer than land. And that is, indeed, what people, when you 
talk to them, the people who are going through this cruel 
system, they are saying: I had to leave. There was no option 
for me.
    And can I just say one thing, Representative? You know, 
there has been concern raised about trafficking of children in 
this hearing. And that is why I feel skeptical that that 
concern is real unless policymakers are ready to invest in 
having decisions made and assessments made----
    Ms. Tlaib. Oh, I know, absolutely.
    Ms. Long [continuing]. by people who are actually qualified 
to make those assessments.
    Ms. Tlaib. I know. Ms. Long, we're here. They have every 
power to introduce legislation to actually tackle some human 
trafficking issues that we all know do exist and we all want to 
be able to address it.
    But I want to pull up a slide of one of the children's 
drawings that has been in one of the cages, detention centers, 
camps, whatever you refer to.
    Ms. Long, as a mother, if my child drew this, I would be 
horrified. Is this normal behavior? Should we be worried when 
we see children drawing pictures like this?
    Ms. Long. The American Academy of Pediatricians has warned 
against the long-term consequences of child detention, even 
child detention that occurs over short periods of time. This 
image is an image that shows, I think, what that looks like, 
what that feels like to a child. It's incredibly traumatizing 
and it could have lifelong impacts.
    Ms. Tlaib. The increase in immigration detention reflects 
only one thing: that this administration's use for prolonged 
incarceration of asylum seekers in massive operations, rounding 
up of long-term community members who pose no safety risk. 
Relying on incarceration is the primary focus of immigration 
law currently, and it's a policy choice by this administration.
    I want you to know it hasn't always been this way. In the 
1980's, I want to tell you, in the 1980's, when numbers on the 
border were even higher than they are today, the use of 
detention for immigration purposes was very unusual. In the 
1990's detention averages hovered like around 5,000, less than 
one-tenth of where we are today.
    There is a better way, and some of my colleagues talked 
about this. Instead, we could look at guidance on international 
agencies, evidence-based approaches showing that community-
supported programs that allow asylum seekers to live in the 
community while their cases are processed is actually cheaper 
and more effective. And more importantly, it would put an end 
to the suffering of children.
    Thank you, Madam Speaker, I yield the rest of my time.
    Ms. Ocasio-Cortez. Thank you so much. The gentlelady 
yields.
    The chair now recognizes the gentleman from Ohio, Mr. 
Jordan.
    Mr. Jordan. I thank the chair.
    Mr. Breen, I'm not that familiar with the pilot program you 
talked about. In that program, does the asylum seeker 
determine, make the determination if they want to be in the 
program and get access to counsel?
    Mr. Breen. No. My understanding is that the way it works is 
that the program--and we have a study on this that I'm happy to 
provide you--but that the program essentially used professional 
social workers to provide education to individuals, family 
service plans, and other case management support.
    So this was a pilot to see that ICE performed, is my 
understanding, to see whether providing that, which is much 
less expensive--it was also done through private contractors, 
by the way--providing that was more effective at getting people 
to show up for court than detaining them until they showed up.
    And, again, to detain a family, it's about $300 a day in 
taxpayer money. This program was about $12 a day per individual 
in taxpayer dollars. We would recommend repeating this program 
at scale with nongovernmental organizations.
    Mr. Jordan. You used a 99 percent figure. What was that in 
relation to?
    Mr. Breen. That is attendance for ICE check-ins and 
appointments.
    Mr. Jordan. For those who have counsel, I thought you said.
    Mr. Breen. No, those were the participants in this program.
    Mr. Jordan. In this program. But when they come to their 
court date, their court appearance, do they have counsel with 
them?
    Mr. Breen. Most do. Some don't. But that's 100 percent 
attendance at court hearings, again. And this is, again, 
professional social workers providing an individualized case 
management approach.
    Mr. Jordan. Does the asylum seeker make the choice on the 
front end to be in the program?
    Mr. Breen. I actually don't know the answer to that 
question.
    Mr. Jordan. Well, you'd think they would. You're not 
forcing people to be in the program, right?
    Mr. Breen. ICE decides. In the case of the pilot, ICE 
decided who went into the program.
    Mr. Jordan. My point is, you had one stat that said 99 
percent show up. Mr. Vitiello said hardly any of them show up. 
And I guess the point would be that there's probably a little 
self-selection going on there.
    Mr. Breen. No, Congressman. ICE made the determination 
about who was in that program and who wasn't, not the asylum 
seekers.
    Mr. Jordan. They just picked them----
    Mr. Breen. That is correct.
    Mr. Jordan [continuing]. and they had to be in the program?
    Mr. Breen. That is correct.
    Mr. Jordan. They were forced to be in the program?
    Mr. Breen. That is correct.
    Mr. Jordan. Okay. All right. Well, that's interesting. But 
my guess is if you----
    Mr. Breen. My point, Congressman----
    Mr. Jordan. If you make a decision you're going to show up, 
you're probably going to want a lawyer if you show up. If you 
make a decision you're not going to show up, you probably don't 
want a lawyer because you're not going to show up.
    Mr. Breen. But that's not how it works. Again, this was a 
program to determine which was the most cost-effective taxpayer 
expense and the most effective way to get people to show up for 
court. And it turns out this is a hell of a lot more effective 
than detention, and cheaper.
    Mr. Jordan. All right. I'm more than willing to look at it.
    Mr. Vitiello, can you comment on that?
    Mr. Vitiello. I would just say that in the 2019 funding 
bill, the one that was signed after the shutdown, has resources 
for ICE to restart this program in some form or fashion.
    The sample that we're talking about is a very small sample. 
It's less than 2,000 people. Lots of incentive to be in the 
program, lots of social services around the individual as 
they're in the United States waiting for their hearing.
    So it doesn't surprise me that the compliance rate was 
high. But very few people that were in that program, less than 
2,000, I think a handful of them got removed. The rest are 
still here.
    Mr. Jordan. Okay. And how many of those 2,000 were 
legitimate asylum seekers? Do we know?
    Mr. Vitiello. That's a matter of the courts.
    Mr. Jordan. My guess is the percentage would be about the 
same. But what I've been told is like 85, 90 percent of people 
seeking asylum are not legitimate asylum seekers under our law. 
Is that accurate?
    Mr. Vitiello. Well, there is a wide disparity between the 
number of people who are authorized for credible fear screening 
and then going through the process, then eventually gain 
asylum. There's a big difference. Almost everybody gets a 
credible fear screening----
    Mr. Jordan. Right, I understand that.
    Mr. Vitiello. And the number of asylees are very small by 
the time they make it all the way through.
    Mr. Breen. The process we're describing, these court 
appearances are specifically to adjudicate who has a legitimate 
asylum claim.
    Mr. Jordan. No, I get that. I understand that. But I'm 
actually----
    Mr. Breen. So it's impossible to say outside that process.
    Mr. Jordan. I asked you questions earlier. I'm actually 
talking to Mr. Vitiello now.
    Mr. Vitiello, I'm just curious about another unrelated or 
different subject, different area. The folks who present 
themselves at the border and are actually--you know, the 
144,000 that happened in the month of May alone, do we know how 
many of them have--what percentage of them have family here or 
what percentage are just first time? Do we know how that--do 
most of them have family? That would be my assumption, but I 
just don't know.
    Mr. Vitiello. Yes, I think typically they do. I mean, 
they're coming for a reason. If they don't have family, they 
soon will have people following them behind. That's typically 
the way immigration takes place, right? There's the Diaspora in 
the United States that people are connecting to.
    Mr. Jordan. Right. Okay. Okay. Sorry, I expected to give 
more time to the ranking member, but you got 30 seconds and 
then your five minutes.
    Mr. Roy. I'm going to ask the chairman, is it just me at 
this point?
    Ms. Ocasio-Cortez. Yes.
    Mr. Roy. Okay. All right. Well, I'll take the 30 seconds 
and then my time and go.
    First of all, thank you all for being around here so late 
in the day. Obviously, it went long. We've been in this room 
all day. But thank you all for doing that.
    Just following up real quick on what Ranking Member Jordan 
just talked about. I guess my question is, I don't know all the 
data here in terms of who's in the pilot and who's not. My 
concern has been in all of this is that--and I think, Mr. 
Vitiello, you kind of referenced this before--is the magnet, 
right, the pressure, right?
    We've got Northern Triangle problems, right? Desire to come 
to America, great. No disagreement on having an ability for 
that to occur and no disagreement on figuring out how to have 
an asylum process where people seeking asylum can seek asylum 
in the safest way possible, right?
    The question comes is when we're allowing that to be an 
enormous magnet, based on cartel profiting, which I think there 
is generally no disagreement that cartels are profiting on the 
back of moving people from the Northern Triangle to the United 
States, might be some disagreements on the amount and it's hard 
to know for sure, but a significant amount of profit, my 
concern gets to the point of that what, Mr. Vitiello, you were 
saying before and Mr. Jordan referenced.
    When they get through to immigration judges, okay, so you 
get past the credible fear screening, you get through the 
process and you get to the immigration judge, roughly right now 
12 percent are being found to have a legitimate asylum claim. 
Now, that is the data that I am aware of.
    Mr. Vitiello, does that marry up with your understanding?
    Mr. Vitiello. I know the percentage is much lower than the 
actual flow of people that are coming to the border, right. 
Lots of people get a credible fear screening because they ask 
for it, and that's the way the law works. That threshold is 
very low. But many of them then do not go on to get asylum.
    Mr. Roy. And the reason I ask that is, is what I'd like to 
know is I'd like to know the answer to that, right? We're 
asking DHS that question. That's something from an oversight 
perspective I'd like to know the answer to. Because if that 
number is like 90 percent, then that's a very different reality 
than if it's 10 or 12 percent, right?
    I'm being told it's 10 or 12 percent. So if I go with that 
as my logic and I'm going, holy cow, we've got this massive 
attraction, understandably, and we're allowing cartels to 
profit and drive people across our border, then we're going 
through a whole process, then getting to the end and saying 12 
percent are qualifying for asylum under the traditional 
understanding of what our asylum laws represent.
    Now, that's for persecuted individuals and so forth as 
opposed to, hey, your economy is bad or it's dangerous and so 
forth. This is what I'm trying to get at.
    Mr. Vitiello, can you put a little bit more of 
understanding as we close out here on the extent to which the 
Reynosa faction of the Gulf Cartel, the Cartel del Noreste Los 
Zetas are profiting and moving people across the border for 
profit, people?
    Mr. Vitiello. So there's a couple of things there. It's my 
experience on the south side of the border the cartels control 
territory. Just like a street corner in a big city, a drug 
cartel will control the retail sales. At the border, the cartel 
controls the traffic and who uses particular parcels of land 
and there is a tax for anyone that moves through those 
territories. And so at the immediate border, people are making 
money off the backs of these people as they're crossing the 
border, no matter where they cross.
    The other thing that's happening is in Mexico people are 
forced to pay bribes. Smugglers are forced to pay tax to 
whatever cartel controls the territory that they operate in. 
And then the smugglers themselves are making money in the home 
countries of where these people are, because they promise or 
they actually pay criminal organizations for the trip up.
    Mr. Roy. Let me address one other issue, and that is 
something that my colleague from New York addressed earlier, 
because I think it's a reasonable point that she raised about 
cultural distinctions and people who show up at the border who 
might be claiming family members and they're not or they're 
distant or whatever, right? They're not necessarily a parent.
    My question is, though, is it not a reality, whatever the 
numbers are of that being a legitimate problem, is it not a 
reality that we have people that are definitively not family 
members that are using children as a passport to come to the 
United States?
    Mr. Vitiello.
    Mr. Vitiello. Yes, that is true. I will forward for your 
team up here some media that CBP put out on--I don't know the 
date here--but it, in fact, talks about ICE's surge to the 
border to try to identify how many families were actually 
legitimate. They did some pilot DNA testing and they found out 
there was a significant percentage of people who were 
manufacturing their relationships in order to get into custody 
and then quickly be released, because they had children with 
them.
    Mr. Roy. And is there intelligence indicating that, in 
fact, they wouldn't, to my colleague's point, be a nonblood 
relative who is claiming to be a parent, culturally or 
otherwise? Is there indication that cartels or other bad actors 
or people for profit are moving people across, falsely claiming 
to be a parent or guardian?
    Mr. Vitiello. Yes. So I think it's an accurate depiction, 
the analysis that sometimes the adult relative is not a parent 
but, in fact, are family, but that's not how they qualify for 
release under the law. If they're not an adult parent then they 
can't be released to that other relative.
    So the Congress could act here to expand the definition of 
adult relative to include the sibling or the aunt or the 
grandmother.
    Mr. Roy. I appreciate, Mr. Vitiello, your testimony.
    And I would yield back to the chairman.
    Mr. Raskin.
    [Presiding.] Thank you very much, Mr. Roy.
    And we thought it was almost over, but we have a late entry 
from Mr. Gomez, who's a member of the committee.
    Mr. Roy. Saving us from the clutches of going to dinner.
    Mr. Raskin. There we go.
    So you are recognized for five minutes, Mr. Gomez.
    Mr. Gomez. Thank you, Mr. Chairman.
    Before I go on to my remarks, Ms. Long, you were shaking 
your head. I wanted to see if you wanted to address that.
    Ms. Long. Thank you so much.
    I just want to take issue with how Mr. Vitiello has 
characterized U.S. law. There is no law that requires the 
United States to separate nonparent families at the border. In 
fact, this is part of the administration's policy to punish 
children and families.
    There are a variety of policy options that could be 
employed here, even maintaining the designation as 
unaccompanied child under the TVPRA, but then providing a 
screening by a qualified child welfare professional, who could 
determine what the best interest of the child was in that 
context and release them under that--you know, after that 
screening to proceed with their immigration cases in the United 
States.
    Mr. Gomez. Thank you for clarifying that.
    One of the things I want to kind of talk about--I'm just 
going to free flow a little bit--is that I like to remind 
people how this zero tolerance policy started. Remember that--I 
believe it was Jeff Sessions that said that it was to be a 
deterrent for families to come up here. If you come up here, 
your kids are going to be taken from you, and, thereby, don't 
come.
    Yes, they claim that there's no zero tolerance policy, but 
what they decided to do is go from a civil administrative 
procedure to a criminal. Basically, everybody that comes here 
that goes between the points of entry, that they are in 
violation and, thereby, ripping the kids away from the adult 
that they're with.
    That in itself is the policy of family separation. The mess 
that we've seen at the border has been predictable, because a 
lot of the ideas are not based on sound policy and rationale, 
but based on politics. How can I seem as tough as possible even 
though that they're not going to truly solve the problems?
    This President claimed that he was the only one that could 
fix all our issues. Well, he's proven that he's the only one 
that can make them even worse than they were before he started.
    So I want to make sure that people remember that, that this 
is something that we've seen.
    I want to get to some questions regarding the border 
station in Clint, Texas. People have seen it. It's become 
infamous about the chaotic scene.
    Ms. Long, you visited and interviewed children at the Clint 
facility, correct?
    Ms. Long. Correct.
    Mr. Gomez. How long were you there and how many children 
did you talk to?
    Ms. Long. I was there from June 17 to June 19, and I 
personally spoke with about 16 children in the El Paso sector 
as a whole. I spent the day of June 18 in the El Paso Station 1 
and the Santa Teresa Border Patrol Station and the 17th and the 
19th in Clint.
    Mr. Gomez. Thank you.
    The New York Times recently reported that the, quote, 
``stench of the children's dirty clothing was so strong it 
spread to the agents' own clothing,'' end quote.
    Ms. Long, is that description consistent with your 
experience?
    Ms. Long. That is.
    Mr. Gomez. Can you describe what else struck you the most 
about the conditions of Clint or other border stations you 
visited?
    Ms. Long. The children were scared. They were hungry. They 
told us that they had no one to take care of them and their 
selves. They were being held incommunicado from family members 
who we began to contact. When we contacted their, you know, in 
some cases their parents, the parents were desperate, had had 
no idea where their children were.
    Under the Flores agreement we do not have the right to 
inspect the facilities, but what we heard again and again from 
over 50 interviews with children detained at the facility was 
consistent: Children were denied access to showers, access to 
toothbrushes, sleeping on the floor.
    Mr. Gomez. On Sunday, Acting DHS Secretary McAleenan was 
asked about allegations of inadequate food, water, and 
sanitation at Clint. He responded by saying, quote: 
``Unsubstantiated allegations last week regarding a single 
Border Patrol facility in Clint Station in Texas created a 
sensation.'' That's balanced somewhat since several media 
outlets toured the Clint station and saw the actual conditions 
there, a clean and well-managed facility and well-equipped 
process,'' end quote.
    Ms. Long, do you agree with the Secretary that the 
allegations at Clint were unsubstantiated?
    Ms. Long. I would ask the Secretary whether he is--you 
know, whether he believes his own Department's Office of 
Inspector General and its inspections of other facilities in 
the area, whether the--why after we raised the alarm at 
conditions at Clint the agency was able to immediately transfer 
the majority of the children into the Office of Refugee 
Resettlement custody even before a supplemental funding bill 
was approved.
    Mr. Gomez. Ms. Long, my interpretation is this, that they 
don't do the right thing unless a light is shone onto these 
facilities. And once it is, then all of a sudden they start 
abiding by the laws, doing the right thing.
    I spent the night at the border in California with refugees 
that were seeking asylum. I know what some of their conditions 
and some of what they're dealing with. So unless we find a way 
to really focus on that, to bring more attention, it's going to 
continue.
    Mr. Chairman, I know I'm out of time, but there has been a 
lot of discussions about some of the culture within Customs and 
Border Patrol, and I wanted to submit for the record a 
ProPublica piece, ``Inside the Secret Border Patrol Facebook 
Group Where Agents Joke About Migrant Deaths and Post [Sexist 
Memes]''----
    Mr. Raskin. Without objection.
    Mr. Raskin. Thank you very much, Mr. Gomez.
    Mr. Gomez. Thank you, Mr. Chairman.
    Mr. Raskin. The gentleman's time has expired.
    And we recognize finally Mrs. Maloney for five minutes.
    Mrs. Maloney. First of all, I want to thank you, Mr. 
Chairman, really, for your attention to this, and to all of the 
panelists.
    And I want to ask some questions about the treatment of 
pregnant women at the border. But really, I'd like to ask each 
of you to comment on where we stand. As you know, we just voted 
$4.7 billion to go to the border. Many of us had humanitarian 
concerns and humanitarian requirements and oversight and 
accountability requirements.
    This was refused to be part of the bill by Leader 
McConnell. So it came back to the House. And we knew it was 
going to the border, but many of us voted against it because 
these conditions were not added to it.
    And I'd like to just go down the line, starting with you, 
Mr. Breen, on what you think we can concretely do through laws 
to clean this mess up? This is not America. It's a horror show. 
I can't believe the stories that we're reading.
    So what do you think? We're now legislating the amendments 
that we tried to put in that were stripped out. But I'd like to 
hear from you, because you're on the front lines every day 
addressing this problem. I want to thank you for your work. And 
I want to hear, if you were a legislator what would you be 
working on to make this better for America, for migrants, for 
everyone?
    Mr. Breen. Thank you, Congresswoman.
    I have to say I agree that money alone will certainly not 
solve this problem. There are a number of policy choices that 
have been made here that are making things considerably worse, 
not better.
    There are a number of very specific recommendations in my 
submitted written testimony and in the report. In the interest 
of time, I'll just kind of quickly summarize. There is a lot 
that Congress can do.
    One is to end the unnecessary and unjust detention of 
asylum seekers for the duration of their proceedings. We are 
detaining all kinds of people who have been accused of no crime 
and who are overwhelmingly likely to show up in court, given 
the opportunity and access to counsel.
    I think we should be legislating access to custody and bond 
hearings for all asylum seekers. There's, again, no reason to 
be detaining a lot of these people at taxpayers' expense.
    Conduct intensive oversight of Trump administration 
violations of U.S. asylum laws at the border. That includes 
detention. It also includes the migrant--perversely named 
migrant protection protocols that deliver people back into 
horrific conditions on the border, where they are preyed on by 
cartels, as Mr. Roy said.
    We should be providing oversight and legislative compliance 
with the Flores settlement agreement and with other policies 
and legal obligations that limit the number of days children 
and adult migrants are to be held in CBP facilities.
    Upgrade the immigration adjudication system. Continue to 
fund humanitarian needs of arriving refugees. And we should be 
supporting regional solutions through legislation and 
oversight. Cutting aid to the Central Triangle at the moment 
that this crisis is occurring is the exact opposite of wise 
policy.
    I could go on, but I'll let others.
    Mrs. Maloney. Okay. Ms. Long.
    Ms. Long. Thank you very much. In the interest of time, 
I'll try to focus on recommendations that differ from the good 
ones that Mr. Breen has put on the table.
    First, I want to emphasize the closed nature of CBP 
facilities like the one at Clint that I visited several weeks 
ago and like the ones in the Rio Grande Valley that Hope has 
visited previously.
    Congress should urgently push CBP to develop an access 
policy, allow independent monitors in those facilities, allow 
independent doctors in those facilities, ensure that they do 
not remain black sites where children can be held incommunicado 
for weeks.
    Mrs. Maloney. Now, let me just throw out real quick. A lot 
of people want to help. They want to donate. We have Doctors 
Without Borders going around the world to help people. They 
want to go to the border and help and volunteer, and they are 
cutoff from helping.
    You know, this toothpaste, I mean, I could call--I would 
send the toothpaste and toothbrushes down. Everybody would. But 
they're blocking donations.
    You know, I think if they're not going to give blankets and 
toothpaste and other things, we can give it. The private sector 
can give it. Congress can personally give it. But they block 
even that help coming in.
    How do we break through that?
    Ms. Long. It's actually a great segue. You know, there are 
communities along the border--Dr. Gutierrez is part of one of 
them--that are providing excellent models of humanitarian 
response for arrivals of asylum seekers. The Annunciation House 
in El Paso, the Sacred Heart Church in McAllen, these are among 
many others, shelters that are taking migrants now when they 
get out of CBP custody, providing them with medical care, clean 
clothes, hot food, a bit of respite.
    That is the model that the United States should be 
exploring when it comes to the reception of asylum seekers at 
the border.
    Mr. Raskin. The gentlelady's time has expired. Thank you 
very much.
    Mrs. Maloney. If you want to submit it in writing, I'd love 
to see it. Thank you.
    Mr. Raskin. I know Mr. Roy is seeking one minute just to 
address this question of charitable donations, and he has some 
legislation related to that.
    Mr. Roy. Yes. So I would just like to add that I, too, 
believe that we ought to make sure there are no barriers 
between the American people and anybody who wants to be able to 
provide services and help in any way. That's why I introduced a 
bill I'm happy to talk to my colleagues about allowing--that 
would get the Antideficiency Act out of the way or make it so 
that materials can be delivered.
    We ought to certainly look at potentially expanding that, 
as I think Congressman Meadows was referencing earlier, to make 
sure if doctors want to provide their services pro bono, we 
should have those conversations as well. I certainly believe 
that wholeheartedly.
    I would just add one little thing, the thing on the 
toothpaste. I mean, the rooms I've seen down there, my chief of 
staff was in Clint over the weekend, and there were rooms full 
of those materials. There's some discrepancy on the 
information, what is or is not true, but we should remove all 
barriers.
    And it does--I see the looks--it does matter. I mean, 
because you have Border Patrol who are working hard every day 
to do the right thing, and I think the witnesses would agree 
with that. Some may not. That's fine. We can have that debate 
and that's what oversight is for. But it is important to 
recognize the hard work, the lives being saved by Border Patrol 
and law enforcement every day.
    So thank you.
    Mr. Raskin. And I want to thank the ranking member. I want 
to thank vice chair, Ms. Ocasio-Cortez, Mrs. Maloney. I want to 
thank Mr. Jordan. And you're on for five minutes.
    Mr. Jordan. No, no, no. I just want to sneak in. I've 
already had my four minutes and 30 seconds.
    Mr. Raskin. Okay.
    Mr. Jordan. But if I could get an extra 30.
    Mr. Raskin. Okay.
    Mr. Jordan. I just have a quick question for Mr. Breen.
    I'm just curious, Mr. Breen, what do you think the number 
is of folks who are in the country in some illegal capacity, 
whether they're overstays, visa overstays, or they're asylum 
seekers who didn't show up for their court date, or they got 
across the border?
    And this is not any type of gotcha. I'm just kind of 
curious what the panel thinks, because we hear 11 million all 
the time, but we've seen this influx over the last couple 
years. I'm just curious what you think the overall number is.
    Mr. Breen. Congressman, my response to that is to say 
that--I mean, I'm a lawyer by training, as many in this room 
are. I believe in the American justice system. I believe in the 
rule of law.
    We have a system to adjudicate that question. As an asylum 
seeker, do they qualify for asylum under U.S. law? And I think 
we ought to make it as easy as we possibly can for an 
individual who wants to make that claim and exercise that legal 
right to do so under the system of justice that we have.
    So there's been a lot of discussion here about how many 
people in the system are legitimate or illegitimate asylum 
seekers. We have a system to adjudicate that. That system is 
under-resourced. It is backlogged.
    Mr. Jordan. I agree with that.
    Mr. Breen. And there are a number of policies in place 
right now that are, intentionally or not, the consequences are 
to make it much slower.
    Mr. Jordan. And I don't want to prolong a long day. We've 
all been here since 10 this morning. And I'm not trying to get 
into a debate. I'm just actually curious what people who are in 
this field and study this from both sides, maybe all sides of 
the political spectrum, what you think the number is, because I 
don't know that we know.
    We also--actually, it's a slightly different issue--but we 
got this question about asking that question on the Census. It 
seems to me the easiest way to figure it out. But I'm just 
curious what you all think it is.
    Mr. Breen. I'll defer to others if they want to give you an 
answer on that.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Raskin. We'll pick it up another day, and we're 
definitely not going to get into the Census before we close 
here.
    But I wanted to thank you, Mr. Jordan, for hanging in, Ms. 
Ocasio-Cortez, vice chair of the committee, the ranking member, 
Mr. Roy.
    I want to thank all of our wonderful witnesses today. It's 
been an emotional roller coaster. We saw extraordinary 
testimony from Ms. Juarez, which I think has shocked the 
conscience of the country.
    You all have offered us tremendous factual information, 
great analytical frameworks for understanding this, and some 
terrific ideas going forward. We've taken scrupulous notes on 
it, and don't think that it disappears into the ether. We're 
going to followup on all of the great ideas that you have 
suggested to us today.
    And we've seen a great bipartisan discussion. Let's hope we 
can move together across the aisle to confront this situation.
    Mr. Roy. I want to just thank the chairman for his 
indulgence and flexibility in working together to make this 
long day work as well as it can. Thank you.
    Mr. Raskin. Thank you, Mr. Roy.
    And thanks to all of you.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which I will forward to the 
witnesses for their response. I ask our witnesses to please 
respond as promptly as you can to any further questions.
    This hearing is adjourned.
    [Whereupon, at 7:06 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
